                                              MINE SAFETY AND HEALTH
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              COAL MINE HAZARDOUS CONDITION
                                              COMPLAINT PROCESS SHOULD BE
                                              STRENGTHENED




                                                                       Date Issued: September 29, 2006
                                                                       Report Number: 05-06-006-06-001
U.S. Department of Labor                                  SEPTEMBER 2006
Office of Inspector General
Office of Audit                                           Coal Mine Hazardous Condition
                                                          Complaint Process Should Be
                                                          Strengthened
BRIEFLY…
Highlights of Report Number: 05-06-006-06-001, to         WHAT OIG FOUND
the Acting Assistant Secretary for Mine Safety and        We found that development of an overall strategy for
Health Administration                                     promoting the process would help ensure
                                                          promotional efforts by CMS&H’s 11 districts are
WHY READ THE REPORT                                       consistent and complete. Additionally, CMS&H had
The Mine Safety and Health Act of 1977 (Mine Act)         not ensured effective performance by the contractor
gives miners and miner representatives the right to       used to receive complaints filed with MSHA
confidentially file a complaint and obtain an             headquarters.
immediate inspection when there are reasonable            A significant number of hazardous condition
grounds to believe that an imminent danger, or a          complaints filed with MSHA headquarters and
violation of the Mine Act or a mandatory safety or        directly with the districts were not evaluated or
health standard, exists. The OIG completed a              inspected timely. These delays may have subjected
performance audit of the hazardous condition              miners to prolonged hazardous conditions. Further,
complaint process managed by MSHA’s Office of             process improvements are needed to ensure
Coal Mine Safety and Health (CMS&H). The audit            complaint evaluations and inspections are thorough,
found that CMS&H’s hazardous condition complaint          consistent, and in accordance with the Mine Act and
process should be strengthened to ensure: the             MSHA policy.
process is promoted consistently; complaints are
evaluated and inspected timely, consistently, and in      CMS&H management analysis relied on reports that
accordance with applicable requirements; and              were based on complaints filed solely with MSHA
information used to manage the process or reported        headquarters; about one-third of the total
to the public is complete.                                complaints. The reports did not include complaints
                                                          filed directly with the districts. Additionally,
WHY OIG DID THE AUDIT                                     information reported to the public on hazardous
CMS&H’s hazardous condition complaint process is          condition complaints was incomplete.
the mechanism in place to satisfy the statutory
requirement for immediate inspections in response         WHAT OIG RECOMMENDED
to complaints filed by miners or miner                    We make 13 recommendations to the Acting
representatives. It is, therefore, critically important   Assistant Secretary for MSHA, summarized as
that the process work effectively in giving miners and    follows:
their representatives a voice and a means to ensure
                                                                ensure efforts to promote the hazardous
appropriate and prompt action is taken to remove
                                                                   condition complaint process are planned,
hazardous conditions from the nation’s coal mines.
                                                                   monitored and evaluated, and complaints
Additionally, the recent increase in coal mine
                                                                   are recorded accurately and completely;
fatalities underscores the need to continuously
                                                                ensure the expectation of evaluation and
improve processes that minimize safety and health
                                                                   inspection timeliness is quantified and that
risks in the coal mines. While there were 22 coal
                                                                   timeliness is monitored and systemic
mine fatalities in all of 2005, there were 33 coal mine
                                                                   reasons for delays are identified and
fatalities in the first 6 months of 2006.
                                                                   addressed;
                                                                ensure complaint evaluations and
READ THE FULL REPORT                                               inspections are consistent and in
To view the report, including the scope,                           accordance with the Mine Act and MSHA
methodology, and full agency response, go to:                      policy; and
                                                                ensure complaint information used by
http://www.oig.dol.gov/public/reports/oa/2006/05-                  CMS&H to manage the process or reported
06-006-06-001.pdf                                                  to the public is complete.

                                                          MSHA initiated or planned corrective action to
                                                          address 11 of our 13 recommendations. MSHA did
                                                          not agree to implement corrective action for two
                                                          recommendations.
                                                                         Coal Mine Hazardous Condition Complaint
                                                                                 Process Should Be Strengthened




Table of Contents
                                                                                                                       PAGE


TABLE OF CONTENTS.................................................................................................. 1

EXECUTIVE SUMMARY ................................................................................................ 3

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

      MSHA’s Promotion of Its Hazardous Condition Complaint
        Process Was Effective, But Can be Improved............................................... 10

      Timeliness of Hazardous Condition Complaint Evaluations
        Needs Improvement ........................................................................................ 15

      Hazardous Condition Complaint Evaluation Consistency and
        Compliance with Laws and Policies Needs Improvement ........................... 19

      Timeliness of Hazardous Condition Complaint Inspections Needs
        Improvement .................................................................................................... 24

      MSHA Lacks Assurance that Hazardous Condition Complaint
        Inspections Are Thorough, Consistent, and Comply with the
        Mine Act and MSHA Policy ............................................................................. 31

      Reporting on Hazardous Condition Complaint Results Was
        Based on Incomplete Data.............................................................................. 37

EXHIBITS...................................................................................................................... 43

      EXHIBIT A 10 Longest Delays from District Notification to
        Inspection Start................................................................................................ 45
      EXHIBIT B 10 Longest Delays from Complaint Receipt to
        Inspection Start................................................................................................ 47

APPENDICES ............................................................................................................... 49

      APPENDIX A            Background .................................................................................. 51
      APPENDIX B            Objectives, Scope, Methodology, and Criteria .......................... 55
      APPENDIX C            Acronyms and Abbreviations...................................................... 61
      APPENDIX D            Agency Response to Draft Report .............................................. 63




U.S. Department of Labor—Office of Inspector General                                                                           1
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


                        Executive Summary
The Office of Inspector General (OIG) completed a performance audit of the hazardous
condition complaint process managed by the Mine Safety and Health Administration’s
(MSHA) Office of Coal Mine Safety and Health (CMS&H). The Mine Safety and Health
Act of 1977 (Mine Act) gives miners and miner representatives the right to confidentially
file a complaint and obtain an immediate inspection when there are reasonable grounds
to believe that an imminent danger, or a violation of the Mine Act or a mandatory safety
or health standard, exists. The recent increase in coal mine fatalities underscores the
need to continuously improve processes that minimize safety and health risks in the
coal mines. While there were 22 coal mine fatalities in all of calendar year (CY) 2005,
there were 33 coal mine fatalities in the first 6 months of CY 2006.

CMS&H’s hazardous condition complaint process is the mechanism in place to satisfy
the statutory requirements for immediate inspections in response to certain alleged
hazards. It is, therefore, critically important that the process work effectively in giving
miners and their representatives a voice and a means to ensure appropriate and prompt
action is taken to remove hazardous conditions from the nation’s coal mines.

Results

While CMS&H had made efforts to improve the hazardous condition complaint process,
further action is needed to ensure: the process is promoted consistently; complaints are
evaluated and inspected timely, consistently, and in accordance with applicable
requirements; and information CMS&H uses to manage the hazardous condition
complaint process is complete.

We performed work to accomplish four specific audit objectives. The four objectives
and our conclusions are summarized as follows:

Objective 1    Is MSHA’s hazardous condition complaint process promoted effectively
               to coal miners, coal miners’ representatives, and other stakeholders?

Although we found that MSHA generally promoted its hazardous condition complaint
process effectively, development of an overall strategy for promoting the process would
help ensure that promotional efforts by the 11 coal districts are consistent and complete.
In addition, CMS&H had neither provided effective training and operational guidance to,
nor monitored the performance of, the contractor used to receive complaints filed with
MSHA headquarters. Both CMS&H and union officials expressed concerns about the
way complainant calls were handled. Actual or perceived deficiencies in initiating
hazardous condition complaints could discourage individuals from using the process.


Objectives     Does MSHA effectively ensure hazardous condition complaint


U.S. Department of Labor—Office of Inspector General                                        3
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened

2 and 3        evaluations are conducted timely, consistently, and in accordance with
               Federal law and MSHA policy? Does MSHA effectively ensure
               hazardous condition complaint inspections are conducted timely,
               thoroughly, consistently, and in accordance with Federal law and MSHA
               policy?

Fourteen percent of the hazardous condition complaints filed with MSHA headquarters
between January 1, 2005, and March 30, 2006, were not evaluated timely, taking 2
days or more from the date they were received until they were assigned to a district
office for action. Also, based on separate statistical samples of complaints filed with
MSHA headquarters and the combined complaints filed with CMS&H’s 11 districts
between January 1, 2005, and March 30, 2006, we estimate that 32 percent and 15
percent, respectively, took 2 or more days before an inspection was initiated following
district notification by headquarters or filing with the district office. These delays may
have subjected miners to prolonged hazardous conditions.

Further, the assessment of the seriousness of complaint allegations (including whether
an imminent danger existed) and the steps taken to protect the complainant’s
confidentiality were not always consistent with provisions in Federal laws, regulations or
MSHA policies. Also, inspections were not always conducted immediately as required
by the Mine Act for hazardous condition complaints alleging imminent danger. Finally,
MSHA had limited assurance that inspections were thorough, consistent, and in
compliance with CMS&H policy because supervisory review of inspector notes was not
consistently documented.

Objective 4    Does MSHA management effectively use complaint process results to
               direct oversight and enforcement responsibilities?

CMS&H management relied on reports that were based on hazardous condition
complaints filed solely with MSHA headquarters, about one-third of the total complaints.
The reports did not include complaints filed directly with the districts. In addition,
information reported to the public on the number of coal mine hazardous condition
complaints received in CY 2004 was significantly understated. The incomplete
reporting may have impacted CMS&H oversight and enforcement decisions and public
perception of CMS&H enforcement responsibilities.

Both prior to and during our audit, CMS&H made efforts to ensure its hazardous
condition complaint process worked effectively to protect the safety and health of coal
miners. Prior to our audit, MSHA significantly expanded the definition of a complaint
requiring CMS&H action to include verbal, unsigned, and certain other complaints, and
developed a new hazardous condition complaint tracking system. Additionally, during
our audit, CMS&H initiated action to monitor the quality of services provided by the
contractor receiving complaints filed through MSHA headquarters, track the timeliness
of hazardous condition complaint evaluations and inspections, and use the MSHA
Standardized Information System (MSIS) to record, track, and report headquarters- and
district-generated hazardous condition complaints.


4                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened



Recommendations

We make 13 recommendations to the Acting Assistant Secretary for MSHA. In
summary, we recommend that the Acting Assistant Secretary establish management
controls to ensure:

      CMS&H develops a written strategy to plan, monitor and evaluate the
       effectiveness of efforts to promote MSHA’s hazardous condition complaint
       process to coal miners, coal miner representatives and other stakeholders.
       Additionally, MSHA should ensure personnel receiving and documenting
       hazardous condition complaints are properly trained and knowledgeable about
       coal mining terminology.

      The expectation of evaluation timeliness is quantified and that timeliness is
       monitored and systemic reasons for delays are identified and addressed.
       Additionally, management should ensure evaluation of the seriousness of
       complaints is documented, training and oversight is provided for appropriate
       determination of imminent danger complaints, and copies of complaints provided
       to mine operators are consistent with MSHA’s guidelines to remove detailed
       information that could compromise a complainant’s identity.

      Inspections for complaints filed with both headquarters and the districts are
       timely and that inspection timeliness is monitored and systemic reasons for
       delays are identified and addressed. Additionally, management should ensure
       the expectation of timeliness for starting inspections of imminent danger
       allegations is quantified and that inspector notes receive appropriate supervisory
       review.

      Complaints made directly to CMS&H’s 11 districts are included in management
       reports used to direct oversight and enforcement. Additionally, management
       should ensure hazardous condition complaint data reported to the public are
       complete.

Agency Response

The OIG provided a draft of this report to MSHA management for review and comment.
We made technical clarifications in the report where appropriate based on MSHA’s
response to the draft report including adding a footnote requested by MSHA to many of
the report tables. For example, MSHA initiated or planned corrective action for 11 of
our 13 recommendations. MSHA did not agree to implement corrective action for two
recommendations as follows:


MSHA did not agree to quantify an expectation for evaluation timeliness in specific
terms (e.g., number of hours). MSHA believed that placing time constraints on a safety

U.S. Department of Labor—Office of Inspector General                                        5
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened

or health activity could have a detrimental effect on the evaluation and quality of the
inspection and response. MSHA stated that, given that each circumstance is different,
the proper response to a complaint requires ensuring that an appropriate number of
resources with the right technical skills are deployed as soon as possible. Additionally,
MSHA stated that focusing on timeliness instead of the overall need for response could
result in a premature and uninformed decision and minimizes the ability for CMS&H to
attack the root cause.

MSHA also did not agree to quantify the expectation of timeliness in specific terms for
beginning inspections of “imminent danger” allegations. MSHA believed that the time
requirements stated in the Mine Act and Federal regulations (”immediately” and “as
soon as possible”) adequately established the expectation for inspection timeliness.
MSHA stated that a performance metric for inspection timeliness was too binding, and
may force abandonment of the current approach on accepting hazardous condition
complaints beyond the 103(g) complaints filed in writing by miners and miner
representatives.

See Appendix D for the agency’s complete response to our draft report.

OIG Conclusion

We consider 5 of our 13 recommendations resolved because MSHA has initiated
specific corrective action. These recommendations will be closed after the corrective
action has been fully implemented. MSHA is planning corrective action for six other
recommendations. We consider these recommendations unresolved pending the
receipt of specific implementation plans.

Regarding MSHA’s disagreement with our two recommendations that MSHA quantify
the expectations for timeliness of complaint evaluations and the initiation of inspections
for imminent danger allegations, we certainly do not advocate meeting standards of
timeliness at the expense of appropriately addressing safety concerns. However, we
are not convinced that a standard of “as soon as possible” is sufficient to drive
evaluation and inspection performance and results. As such, we maintain our
recommendations that MSHA quantify the expectations of timeliness in specific terms
for evaluating complaints and starting inspections of imminent danger allegations.




6                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                             Coal Mine Hazardous Condition Complaint
                                                                     Process Should Be Strengthened

U.S. Department of Labor                             Office of Inspector General
                                                     Washington, DC 20210




                             Assistant Inspector General’s Report


Mr. David Dye
Acting Assistant Secretary for Mine Safety
 and Health Administration
U.S. Department of Labor
1100 Wilson Boulevard
Arlington, Virginia 22209-3939

The Office of Inspector General (OIG), Office of Audit, conducted a performance audit
of the hazardous condition complaint process managed by the Mine Safety and Health
Administration’s (MSHA) Office of Coal Mine Safety and Health (CMS&H). While MSHA
operates hazardous condition complaint processes for both coal mines and metal/non-
metal mines, this audit focused only on the process related to coal mines. Specifically,
we performed work to address the following questions:

    1. Is MSHA’s hazardous condition complaint process promoted effectively to coal
       miners, coal miner representatives, and other stakeholders?

    2. Does MSHA effectively ensure hazardous condition complaint evaluations1 are
       conducted timely, consistently, and in accordance with Federal law and MSHA
       policy?

    3. Does MSHA effectively ensure hazardous condition complaint inspections2 are
       conducted timely, thoroughly, consistently, and in accordance with Federal law
       and MSHA policy?

    4. Does MSHA management effectively use complaint process results to direct
       oversight and enforcement responsibilities?

We found that CMS&H’s hazardous condition complaint process should be
strengthened. CMS&H had made efforts to ensure its hazardous condition complaint
process worked effectively. However, development of a more timely and consistent
complaint process is needed.
1
  The “evaluation” stage of the hazardous condition complaint process includes assessing (a) whether the
complaint allegations involve a violation of the Mine Act or mandatory safety and health standards and (b)
the potential seriousness of the alleged violation.
2
  The “inspection” stage of the hazardous condition complaint process includes actions taken by a mine
inspector to determine the validity of the complaint allegations.

U.S. Department of Labor—Office of Inspector General                                                     7
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened

Prior to our audit, CMS&H had made efforts to ensure its hazardous condition complaint
process worked effectively to protect the safety and health of coal miners. These efforts
included:

       significantly expanding the Mine Act’s definition of a “complaint” that required
        CMS&H action. In addition to signed written complaints, CMS&H also
        investigated verbal complaints, unsigned or anonymous complaints, and
        complaints originating from someone other than a miner or miner representative;
        and

       developing a new hazardous condition complaint tracking system to improve
        process oversight. The new tracking system was implemented in February 2006.

In addition to these efforts, CMS&H should take further action to strengthen its
hazardous condition complaint process. We determined that information provided by
CMS&H’s 11 districts on the various methods to file complaints was neither consistent
nor complete. Also, there were several process weaknesses that resulted in delays in
evaluating and inspecting complaint allegations. These delays may have subjected
miners to prolonged hazardous conditions. Finally, CMS&H’s use of complaint process
results to direct oversight and enforcement was not as effective as possible because the
data were incomplete.

Section 103(g) of the Mine Act gives miners and miners’ representatives the right to file
a signed, confidential complaint in writing about a violation of the Mine Act, a mandatory
health or safety standard, or an imminent danger at any mine. The Mine Act defines
“imminent danger” as the existence of any condition or practice in a coal or other mine
which could reasonably be expected to cause death or serious physical harm before the
condition or practice can be abated. Complaints can be submitted to MSHA
headquarters or directly to a district or field office within CMS&H.

During our audit, CMS&H’s policy required verbal complaints, unsigned or anonymous
complaints and complaints originating from someone other than a miner or
representative of a miner to be handled the same as 103(g) complaints. Once received,
complaints were evaluated. This included (a) categorizing the complaint (“103(g)” or
“other”); (b) assessing whether the complaint allegations involved a violation of the
Federal Mine Safety and Health Act of 1977 (Mine Act) or a mandatory health and
safety standard; and (c) assessing the potential risk to miners. For complaints filed with
MSHA headquarters, these steps were completed by personnel in CMS&H’s Division of
Safety. For complaints filed directly with a district or field office, these evaluation steps
were completed by a designated district official.

If the evaluation stage determined that an inspection was necessary, management in
the responsible district assigned responsibility for the inspection to the appropriate field
office. In turn, the field supervisor assigned responsibility for the inspection to a specific




8                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                           Coal Mine Hazardous Condition Complaint
                                                                   Process Should Be Strengthened

coal mine inspector. The assigned inspector reviewed the complaint and related
information and traveled to the mine site. At a pre-inspection conference, the inspector
provided both the mine operator and miner representatives with a copy of the sanitized
complaint.3 The inspector then completed whatever observations, tests, or other tasks
were needed to determine the validity of the complaint allegations.

At a post-inspection conference, the inspector issued citations/orders for violations
found. If there were no violations, the inspector issued a Notice of Negative Findings to
be posted on the mine bulletin board. The inspector then completed supporting field
notes and submitted them to the field supervisor for review.

After the inspection was completed, the District Manager (DM) or designee signed off
on a report that documented the findings for each allegation in the complaint. If the
complaint originated at headquarters, a copy of the investigation report was forwarded
to the CMS&H Administrator for review and approval within 30 days after the date the
complaint was filed. Reports related to complaints initiated in a district office were
maintained in the district.

Additional background information is contained in Appendix A.

We conducted the audit in accordance with generally accepted government auditing
standards for performance audits. Our audit scope, methodology, and criteria are
detailed in Appendix B.

Objective 1 – Is MSHA’s hazardous condition complaint process promoted effectively
              to coal miners, coal miners’ representatives, and other stakeholders?

Results and Findings

Yes. MSHA generally promoted its hazardous condition complaint process effectively.
Coal miners and coal miners’ representatives were generally aware of their right to file a
complaint. However, development of an overall strategy for promoting the process
would help ensure that promotional efforts by the 11 coal districts are consistent and
complete. In addition, the performance of the contractor used by MSHA to receive
complaints filed through MSHA headquarters was deficient. The headquarters
complaint receipt process should be monitored and improved to reduce the risk that
individuals will be discouraged from filing complaints.




3
  A sanitized complaint is a version of the complaint that has been edited to protect the complainant’s
identity. The complainant’s name and other information (e.g., specific machinery or mine areas) that can
be used to identify the complainant are removed.

U.S. Department of Labor—Office of Inspector General                                                       9
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened

MSHA’s Promotion of Its Hazardous Condition Complaint Process Was Effective,
But Can be Improved

CMS&H effectively promoted its hazardous condition complaint process to coal miners,
coal miners’ representatives, and others in a variety of ways. However, these efforts
were unstructured. CMS&H can (1) more effectively and consistently promote its
hazardous condition complaint process and (2) remove barriers that may limit the filing
of hazardous condition complaints.

As required by the Mine Act, CMS&H provided a process for miners, miners’
representatives, and other parties to report hazardous conditions related to coal mines.
Nationally, complaints could be reported to CMS&H headquarters through a toll-free
hotline (referred to as the Code-A-Phone). These calls were answered around-the-
clock by a contractor. Complaints could also be reported to CMS&H headquarters
online via MSHA’s website at www.msha.gov. The website automatically routed
complaints received online to appropriate MSHA personnel based on the information
provided. Locally, complaints could be filed directly with any of CMS&H’s 11 district
offices and 45 field offices by phone, email, fax, or in person.

While miners and miners’ representatives were aware of their right to file hazardous
condition complaints, information provided by the 11 coal districts on the various
methods available to file complaints was neither consistent nor complete. In addition,
deficiencies in the initial receipt and documentation of complaints at the national level
may have discouraged potential complainants from using the process. These
conditions occurred because CMS&H management had not placed sufficient emphasis
on the promotion process. Specifically, management had not (1) established a formal
strategy to promote its hazardous condition complaint process and (2) provided
effective oversight of the Code-A-Phone contractor to identify and correct poor
performance. CMS&H management should correct these process weaknesses to
minimize the risk that dangers or violations exist in coal mines, but are not reported and
corrected. CMS&H took corrective action during the audit to address some of the
process weaknesses we identified.

Inconsistent Promotion of CMS&H’s Hazardous Condition Complaint Process

CMS&H used various methods to raise awareness of its hazardous condition complaint
process to coal miners, coal miners’ representatives, and other stakeholders. Based on
our process review and stakeholder interviews, we found that coal miners and coal
miner representatives were aware of their right to file a complaint. However, we also
found that information provided by the 11 coal districts about the methods available to
file complaints was neither consistent nor complete. As a result, the risk that existing
violations or dangers were not reported and corrected was increased.

According to officials at the 11 district offices, promotion of the hazardous condition
complaint process is generally conducted through national and district websites, printed
materials, and training sessions. For example, MSHA’s website and some district


10                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened

websites include links to MSHA’s national hazard reporting page. In addition, MSHA
publishes A Guide to Miners’ Rights and Responsibilities Under the Federal Mine Safety
and Health Act of 1977 which includes information on how to report a hazardous mine
condition using the Code-A-Phone, the national website, or by contacting the
appropriate district or field office. Also, MSHA publishes and distributes posters that
publicize the Code-A-Phone and business cards that include emergency contact
information for district personnel. According to DMs, miners are also instructed on how
to report a hazardous condition complaint to CMS&H (a) during the required orientation
training provided by all mine operators, (b) by union representatives at unionized mines,
and (c) by CMS&H inspectors during health and safety talks that they conduct for
miners at each of their assigned mines. At the four mines we visited, miners generally
told us that they were aware of CMS&H’s process to file hazardous condition complaints
as a result of at least one of these efforts.

While CMS&H had an assortment of methods to promote its hazardous condition
complaint process, the practices used in individual district offices varied significantly.
For example:

      At two coal mines we visited in one district, no MSHA promotional materials were
       posted. At two coal mines we visited in another district, MSHA’s Code-A-Phone
       poster and miners’ rights booklets were visibly posted on the mines’ bulletin
       boards. Management at 6 of 11 districts told us they used Code-A-Phone
       posters at their mines.

      Four districts’ websites did not provide any information on how to report a
       hazardous condition complaint to CMS&H. The websites for three other districts
       included information and links on how to file a hazardous condition complaint
       online, using the Code-A-Phone, and directly to the districts. The websites for
       the remaining four districts provided information on one or more, but not all, of
       these reporting mechanisms.

      Two districts’ websites publicized an obsolete national toll-free telephone number
       to report coal dust related problems. CMS&H management stated it no longer
       operated a separate line to report dust problems and that all calls should be
       reported through the Code-A-Phone.

      Management at five districts stated that they promoted CMS&H’s hazardous
       condition complaint process during meetings with members of the mining
       community and the public.

Some promotional materials provided confusing information. For example, MSHA’s
Code-A-Phone posters provided two toll-free telephone numbers, one for reporting
hazardous condition complaints and the other for reporting mine emergencies and
accidents. However, both reached the same answering service contractor and calls to
either number were screened using the same call script. As such, there was no
procedural difference between the two telephone numbers. Management from one


U.S. Department of Labor—Office of Inspector General                                         11
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened

district stated that using the same contractor and process to answer calls to hotlines
that were identified in promotional materials as having different purposes had caused
some confusion among miners.

Other promotional materials were incomplete. For example, MSHA’s national website
did not indicate that hazardous condition complaints reported after normal business
hours (including weekends and holidays), through the Code-A-Phone or website, would
not have been addressed by CMS&H until the next business day. Nor did it instruct
potential complainants that complaints could have been made directly to CMS&H’s
district offices.

Officials from nine district offices stated that MSHA could improve efforts to promote its
hazardous condition complaint process. Suggestions included the use of public service
messages and newspaper advertisements to increase awareness.

CMS&H took corrective action during the audit to address some of the process
weaknesses we identified. This action included:

        revising promotion posters; and

        establishing consistency between MSHA and CMS&H district websites.

Performance Deficiencies by Code-A-Phone Contractor

Since October 2005, calls to MSHA’s Code-A-Phone were received, documented, and
forwarded to MSHA personnel by a contractor.4 However, CMS&H management had
not provided effective operating guidance to the contractor or monitored the contractor’s
performance. As a result, both CMS&H and union officials expressed concerns about
the way complainant calls were handled. Actual or perceived deficiencies in initiating
hazardous condition complaints could discourage individuals from using the process.

A contractor provided telephone answering services for two toll-free telephone hotlines
– one for reporting hazardous condition complaints and another for reporting mine
emergencies and accidents. Contractor personnel answered calls using a script
provided by MSHA; transcribed complainants’ responses verbatim; and electronically
transmitted transcripts of the complaints to appropriate MSHA personnel. The
contractor received $4,000 annually for providing these services.

United Mine Workers of America (UMWA) officials stated that miners had complained to
them about the contractor’s lack of professionalism and unanswered calls to the
Code-A-Phone line. When we called to observe the contractor’s performance, the call
taker’s greeting did not mention the Code-A-Phone, hazardous condition complaints, or

4
  Before October 2005, Code-A-Phone callers were provided automated menu options to record their
initial complaints. The digitized recordings of the complaints were automatically routed to appropriate
MSHA personnel based on the information provided.


12                                              U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 05-06-006-06-001
                                                         Coal Mine Hazardous Condition Complaint
                                                                 Process Should Be Strengthened

MSHA. When we asked whom we had reached, the call taker stated the MSHA call
center. The call taker then incorrectly informed us that our call was routed to the call
center because it was made after business hours. In fact, all Code-A-Phone calls are
routed to the contractor operated call center regardless of the time of day.

Management from four district offices and officials from the UMWA also expressed
concerns about the contractor’s lack of mining knowledge. For example, management
from one district office stated that “there have been issues where the contractor does
not understand mining ‘jargon’ and had a difficult time relaying the gist of the complaint
to the district.” We reviewed the contract, as well as the statement of work (SOW), and
noted that there were no requirements for contractor personnel to have any mining
knowledge. The contract and SOW also contained no provisions for measuring or
monitoring the contactor’s performance.

The call scripts provided by CMS&H and used by the contractor contained deficiencies
concerning complainant confidentiality and disclosure of CMS&H’s time frames for
responding to complaints. The call scripts did not instruct the contractor to inform
callers that they could remain anonymous. UMWA officials told us that they were aware
of situations where miners did not report a hazardous condition complaint because the
contractor insisted that the complainants identify themselves. We also noted that the
call scripts did not include notifications to callers that (1) hazardous condition complaints
reported after business hours, including weekends and holidays, would not be
addressed by CMS&H until the next business day and (2) hazardous condition
complaints could be made directly to the districts.

Deficiencies in receiving and documenting telephone calls may have diminished the
effectiveness of the Code-A-Phone as a mechanism to file complaints because
individuals may be discouraged from filing. In addition, these conditions adversely
affected CMS&H’s ability to properly conduct hazardous condition complaint inspections
required under the Mine Act and MSHA policy.5 MSHA needs to improve oversight of
the contractor or find alternate mechanisms for receiving complaints filed with MSHA
headquarters. Implementing corrective action will help minimize the risk that a violation
or danger exists, but is not reported or corrected.

CMS&H initiated corrective action during the audit to address some of the process
weaknesses we identified. This action included:

         revising the contractor’s script to include a notification to callers that they can file
          a complaint anonymously and that complaints can be made directly to the
          districts;

         developing a protocol for periodical testing and monitoring of the quality of the
          contractor’s service by CMS&H’s Division of Safety personnel; and


5
    See Results and Findings for Objectives 2 and 3.


U.S. Department of Labor—Office of Inspector General                                            13
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened

         identifying deficiencies and initiating corrective action related to the contractor’s
          service.

CMS&H is also evaluating alternatives to using the contractor.

Recommendations

The OIG recommends that the Acting Assistant Secretary for MSHA establish
management controls that ensure:

 1.       CMS&H management develops and implements a written strategy to plan,
          monitor, and evaluate the effectiveness of efforts to promote its hazardous
          condition complaint process to coal miners, coal miners’ representatives and
          others. This includes ensuring promotional materials (i.e., websites, publications)
          describe the methods for filing complaints with both headquarters and the
          districts, and how quickly complaints will be addressed by CMS&H.

 2.       Code-A-Phone complaints are recorded accurately and completely. This includes
          ensuring personnel receiving and documenting hazardous condition complaints
          are properly trained and knowledgeable about coal mining terminology.

Agency Response

For recommendation 1, MSHA is evaluating options for promoting the hazardous
condition complaint process in the mining community. According to MSHA, once MSHA
has made a decision regarding the options, CMS&H will implement a written strategy to
plan, monitor, and evaluate the effectiveness of efforts to promote its hazardous
condition complaint process. Additionally, MSHA is developing a standardized template
for CMS&H district websites to provide consistent content on hazardous condition
complaint process information and the appropriate points of contact at the district and
headquarters levels. MSHA noted that mine operators are not required to post
promotional material and MSHA has no authority to force the operator to post
promotional material.

For recommendation 2, MSHA stated it will implement a process in October 2006 that
will allow complainants to speak with a live person or leave a voice mail message for
CMS&H mining professionals. CMS&H said it will also continue to periodically test and
monitor the quality of the contractor’s service according to the protocol established
during the audit. MSHA noted that locating an answering service that can provide
personnel knowledgeable about coal mining terminology will be difficult and that it is
reviewing alternatives.




14                                           U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened

OIG Conclusion

Recommendation 1 is unresolved pending receipt of a written strategy to plan, monitor,
and evaluate CMS&H’s efforts to promote its hazardous condition complaint process.
Recommendation 2 is unresolved pending receipt of a final plan to ensure Code-A-
Phone complaints are recorded accurately and completely.

Objective 2 - Does MSHA effectively ensure hazardous condition complaint
              evaluations are conducted timely, consistently, and in accordance with
              Federal law and MSHA policy?

Results and Findings

No. A significant number of hazardous condition complaints filed with MSHA
headquarters were not evaluated timely, taking 2 days or more from the date they were
received until they were assigned to a district office for action. These delays may have
subjected miners to prolonged hazardous conditions. In addition, the assessment of the
seriousness of complaint allegations (including whether an imminent danger existed)
and the steps taken to protect the complainant’s confidentiality were not consistent with
provisions in federal laws and regulations or MSHA policies. Management should better
define and monitor evaluation timeliness and implement controls to ensure compliance
with laws, regulations, and policies.

Timeliness of Hazardous Condition Complaint Evaluations Needs Improvement

Improvements to CMS&H’s hazardous condition complaint process are needed to
ensure evaluations of complaints are conducted timely. Federal laws, regulations, and
MSHA policies convey a sense of urgency in acting on hazardous condition complaints,
but do not define a clear timeliness benchmark (i.e., number of hours or days) between
the receipt and evaluation of a complaint. Of the 410 hazardous condition complaints
made to CMS&H headquarters from January 1, 2005, through March 30, 2006, 14
percent took 2 days or more from the date the complaint was received to the date a
district office was notified to conduct an inspection (referred to in this report as the
evaluation period).

This occurred because CMS&H management had not (1) monitored evaluation
timeliness and (2) addressed systemic reasons for delays. Evaluation delays increase
the risk that a prolonged hazardous condition may lead to accidents, injuries, or
fatalities. The majority of these delays could be reduced or avoided through improved
procedures and management oversight. CMS&H took corrective action during the audit
to address some of the process weaknesses we identified.

Evaluation Timeliness for Hazardous Condition Complaints Made to Headquarters

Federal laws, regulations, and MSHA policy all convey a need to act expeditiously in
assessing and resolving complaints. However, a significant number of hazardous

U.S. Department of Labor—Office of Inspector General                                       15
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened

condition complaints made to MSHA headquarters took 2 or more days to be evaluated
and assigned to a district office for action, and may have subjected miners to prolonged
hazardous conditions.

The time requirements for MSHA to respond to hazardous condition complaints under
the law, regulations, and its policies were imprecise. But all convey a desire for prompt
action. The Federal Mine Safety and Health Act of 1977 (Mine Act) calls for an
“immediate inspection” when there are reasonable grounds to believe that a violation of
the Mine Act, or a mandatory health or safety standard, or an imminent danger exists.
Federal regulations (30 C.F.R 43.5), require an inspection “as soon as possible” after
notice of an alleged violation or imminent danger is received. Furthermore, MSHA’s
Hazard Complaint Procedures Handbook states that an “immediate inspection” will
occur when MSHA concludes that an imminent danger to the safety or health of miners
exists and that an inspection will occur “as soon as possible” when a serious hazard to
the safety or health of miners may exist at a mine. These benchmarks are not
quantified in terms of a number of hours or days. We summarized evaluations that took
2 days or more from complaint receipt by headquarters to district notification to support
that the timeliness of CMS&H’s hazard complaint evaluations needs improvement.
We analyzed all 410 hazardous condition complaints made to headquarters from
January 1, 2005, through March 30, 2006. Fifty-six, or 14 percent, of these complaints
took 2 days or more from the date the complaint was received to the date the complaint
was transmitted to a district office for action, and may have subjected miners to
prolonged hazardous conditions. Table 1 summarizes our results.

                                               Table 1

              14 Percent of Headquarters Hazardous Condition Complaints
                              Took Two Days or More from
                       Complaint Receipt to District Notification
                        January 1, 2005 through March 30, 2006

    Complaint Receipt to            Number of              Percent                 Two Days
    District Notification          Complaints a            of Total                 or More
    Same day                          245                      60
    Next day                          109                     27
    2 days                             26                       6
    3 days                             18                       4              56 or 14 percent c
    > 3 days b                         12                       3
    Total                             410                    100
Source: OIG analysis of data provided by CMS&H
a
    Number includes mandatory 103(g) evaluations and other complaint evaluations conducted according
    to CMS&H policy.
b
    Delays for complaints in this category ranged from 4 to 11 days.
c
    Percent of Total does not add up to 14 due to rounding.




16                                            U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 05-06-006-06-001
                                                            Coal Mine Hazardous Condition Complaint
                                                                    Process Should Be Strengthened

Based on information provided by CMS&H, we summarized the reasons for the delay
for 52 of the 566 hazardous condition complaints taking 2 days or more from complaint
receipt to district notification, and may have subjected miners to prolonged hazardous
conditions.

         Forty-one evaluations were delayed because the complaint was received on a
          Friday, weekend, or holiday. For example, complaints made on Saturday
          resulted in a 2-day delay because headquarters personnel generally do not work
          weekends, so the complaint would not be evaluated until the next business day
          (Monday).

         Eleven evaluations were delayed because a temporary, but undetected, problem
          in headquarters’ email system prevented hazardous condition complaint
          messages from being transmitted from the contractor to MSHA personnel for
          evaluation.

Increased Management Emphasis Needed to Improve Headquarters Timeliness

CMS&H management had not placed adequate emphasis on ensuring timely hazardous
condition complaint evaluations. The lack of management emphasis resulted in several
process weaknesses including:

         There was no process in place to measure or monitor how quickly hazardous
          condition complaints were evaluated or assigned to a district office for action.

         CMS&H personnel were not available to evaluate hazardous condition
          complaints received after normal business hours or on weekends and holidays.

CMS&H initiated corrective action during the audit to address some of the process
weaknesses we identified. This action included:

         issuing a policy to track the timeliness of hazardous condition complaint
          evaluations and include performance information in CMS&H management
          reports;

         issuing a policy to require headquarters management to monitor and evaluate
          hazard complaints received through MSHA’s Code-A-Phone and website during
          weekends and holidays and notify the districts when imminent danger complaints
          were alleged; and

         implementing a plan to test the complaint routing system on a weekly basis and
          ensure that it is operational.



6
    CMS&H was not able to provide an explanation for the remaining four complaints.


U.S. Department of Labor—Office of Inspector General                                            17
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened

Recommendations

The OIG recommends that the Acting Assistant Secretary for MSHA establish
management controls to improve the timeliness of hazardous condition complaint
evaluations made to headquarters. These policies and controls should ensure:

 3.    The expectation of timeliness for completing evaluations of hazardous condition
       complaints under the Mine Act, 30 C.F.R. 43, and MSHA policy are consistent
       and quantified in specific terms (e.g., number of hours).

 4.    Hazardous condition complaint evaluation timeliness is measured, monitored,
       and systemic reasons for delays are identified and addressed. This includes
       ensuring processes are developed to improve evaluation timeliness for
       complaints made to headquarters after normal business hours and during
       weekends and holidays.

Agency Response

MSHA agreed that the expectation of timely and consistent hazardous condition
complaint evaluations could be improved. However, MSHA did not agree with the part
of recommendation 3 that stated that MSHA needs to quantify an expectation for
evaluation timeliness in specific terms (e.g., number of hours). MSHA believed that
placing time constraints on a safety or health activity could have a detrimental effect on
the evaluation and quality of the inspection and response. MSHA stated that, given that
each circumstance is different, the proper response to a complaint requires ensuring
that an appropriate number of resources with the right technical skills are deployed as
soon as possible. Additionally, focusing on timeliness instead of overall need for
response could result in a premature and uninformed decision.

For recommendation 4, MSHA initiated corrective action during the audit. CMS&H will
track evaluation timeliness and include performance information in management
reports; monitor and evaluate hazard complaints received by headquarters during
weekends and holidays; and test the complaint routing system on a weekly basis. [The
corrective action is discussed more fully on page 17 of this report.]

OIG Conclusion

Recommendation 3 is unresolved. Regarding MSHA’s disagreement regarding
quantifying the expectation for timeliness of complaint evaluations, we certainly do not
advocate meeting standards of timeliness at the expense of appropriately addressing
safety concerns. However, we are not convinced that a standard of “as soon as
possible” is sufficient to drive evaluation and inspection performance and results.
Additionally, it is our opinion that hazardous condition complaint evaluations should be
based on the substance of the complaint rather than the availability of the appropriate
number of district resources with the right technical skills. As such, we believe district



18                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                          Coal Mine Hazardous Condition Complaint
                                                                  Process Should Be Strengthened

notification should occur as soon as headquarters determines that a special inspection
should be conducted.

Recommendation 4 is resolved and will be closed after the corrective action has been
implemented.

Hazardous Condition Complaint Evaluation Consistency and Compliance with
Laws and Policies Needs Improvement

Improvements to CMS&H’s hazardous condition complaint process are needed to
ensure complaints are evaluated consistently and in accordance with Federal law and
MSHA policy. In some instances, CMS&H practices varied and departed from the Mine
Act and MSHA policy related to (1) evaluating the seriousness of hazardous condition
complaints; (2) determining complaints that allege imminent danger; and (3) protecting
complainant confidentiality. This occurred because CMS&H management had not
established adequate management controls. Inconsistencies and lack of compliance
could result in different treatment and disposition of similar complaints and increase the
risk that dangers or violations exist but are not addressed in a timely manner, or at all.
Moreover, miners may not report hazardous conditions if their confidentiality is not
protected. CMS&H took corrective action during the audit to address some of the
process weaknesses we identified.

Assessing the Seriousness of Hazardous Condition Complaints

MSHA’s Hazard Complaint Procedures Handbook requires that an Authorized
Representative (AR)7 assess the seriousness of a hazardous condition complaint to
determine whether a special inspection should be conducted. The handbook requires
the AR to classify the complaint according to one of four categories:

       Imminent Danger, requiring immediate inspection;

       Serious Hazard, requiring inspection to be conducted as soon as possible;

       Not a Serious Hazard, allowing inspection to be conducted during the next
        regular inspection; and

       Violation Does Not Exist, not requiring an inspection.

CMS&H records usually did not contain documentation that an assessment according to
the four categories had been performed. We reviewed a statistical sample of 127 out of
the 336 hazardous condition complaints filed with headquarters during January 1, 2005,

7
  Authorized Representatives are located in MSHA headquarters and CMS&H district and field offices.
MSHA personnel receive their Authorized Representative credentials after completing 18-24 months of
instruction at MSHA’s Mine Academy and on-the-job training with experienced mine inspectors.
Individuals with these credentials also meet MSHA’s requirements for certified underground Coal Mine
Inspectors.

U.S. Department of Labor—Office of Inspector General                                                   19
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened

through March 30, 2006, and 149 out of the 656 hazardous condition complaints filed
directly with district offices during the same period. We determined that 126, or 99
percent, of the headquarters complaints and 144, or 96 percent, of the district
complaints did not have evidence that the required assessment had been performed.

Standards for Internal Control in the Federal Government states that all transactions
and other significant events need to be clearly documented, and documentation should
be readily available.8 Without evidence of an AR’s assessment, CMS&H management
had no assurance that district offices were complying with its policy. In turn, if ARs were
not performing the complaint evaluations, there was an increased risk that improper
evaluations were made, including the urgency with which complaints should have been
handled.

This condition occurred because CMS&H’s policy did not require that complaint records
contain documentation of assessments made according to the four categories noted in
MSHA’s Hazard Complaint Procedures Handbook.

Determining Whether Hazardous Condition Complaints Involve an Imminent Danger

An “imminent danger” is the most serious hazardous condition and requires an
immediate response from MSHA. The Mine Act defines “imminent danger” as the
existence of any condition or practice in a coal or other mine which could reasonably be
expected to cause death or serious physical harm before the condition or practice can
be abated. We found several instances where the determinations of whether a
hazardous condition complaint involved an imminent danger were inconsistent.

Guidance described in CMS&H’s Coal General Inspection Procedures Handbook
(April 2000) provided instructions to review the content of hazardous condition
complaints for key words such as “methane,” “gas,” or “percent of” that may indicate the
existence of an imminent danger. CMS&H personnel generally relied on this approach
to determine how urgently complaints should be handled. CMS&H management and
inspectors stated that “electric,” “exposed wires,” and “roof conditions” were other key
words that may constitute an imminent danger.

We reviewed a statistical sample of 127 out of 336 hazardous condition complaints
made to MSHA headquarters from January 1, 2005, through March 30, 2006. Four of
these complaints contained allegations of excessive methane accumulations, electrical
hazards, exposed wires, and unsafe roof support, but were not assessed by CMS&H
personnel as an imminent danger. Table 2 summarizes these complaints.




8
    U.S. Government Accountability Office, GAO/AIMD-00-21.3.1 (Washington, D.C.: November 1999).

20                                            U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


                                            Table 2

                    Headquarters Hazardous Condition Complaints
                        Not Considered an Imminent Danger
                       January 1, 2005 through March 30, 2006

                                                           Key        Complaint Receipt to
CMS&H Description                                          Word         Inspection Start
(1) Excessive methane accumulations in the                Methane           2 days
    No. 10 section; 3 percent methane was found.
(2) Electrical hazards on miner, bolt machine does       Electrical           2 days
    not stay up in the heads; hazards related to
    cable on electrical panel of bolter.
(3) The energized high voltage in the high voltage        Exposed             2 days
    tub behind the section power center has                Wires
    exposed wires covered by plastic tape.
(4) Roof support jacks on Alpine miner not always           Roof              7 days
    against the roof; jacks could fall and injure
    someone.
Source: OIG analysis of data provided by CMS&H

Other hazardous condition complaints in our statistical sample received differing
assessments even though the allegations described were similar, as shown in Table 3.

                                            Table 3

                   Headquarters Hazardous Condition Complaints
               Similar Allegations Resulted in Different Categorizations
                       January 1, 2005 through March 30, 2006

 Categorized as Imminent Danger                  Not Categorized as Imminent Danger
 (1) People in the preparation plant are         (4) Miners allegedly smoking and using
     using and distributing drugs.                   drugs underground; management is
                                                     involved in hazardous activity.
 (2) Continuous miners are frequently            (5) Excessive methane accumulations in the
     running in methane concentrations               No.10 section; 3% methane was found.
     above 1% and without required air
     velocity.
 (3) Unsafe equipment, dusty roads, lack     (6) Accumulations of fine coal and float
     of rock dust, in general the place is a     dust at the belt drive and portal.
     mess.
Source: OIG analysis of data provided by CMS&H




U.S. Department of Labor—Office of Inspector General                                       21
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened


These inconsistencies could result in different treatment and disposition of similar
complaints and increase the risk that dangers or violations exist but are not
appropriately addressed. These conditions occurred because CMS&H did not provide
adequate training for determining what mine conditions constituted an imminent
danger.

Protecting Complainant Confidentiality

We found that CMS&H practices to protect the confidentiality of complaints were not
always consistent with its guidelines. MSHA’s Hazard Complaint Procedures Handbook
states that protecting the identity of all complainants is of the utmost concern to MSHA.
In addition to certain actions required under the Mine Act, such as the mandatory
removal of the complainant’s name, the Handbook proposes that ARs take other actions
to protect complainant confidentiality before providing a copy of the complaint to the
mine operator. Suggestions include rewriting a complaint to remove references to a
specific work area, equipment, or work shift so that the complainant’s identity is not
disclosed.

We found several instances where the rewritten complaints provided to the mine
operators did not remove references as suggested that could possibly identify the
identity of the complainants. We noted 39 of the 127, or 31 percent, of statistically
selected complaints filed with headquarters during January 1, 2005, through March 30,
2006, did not remove such specific references. We found the same conditions for 21 of
the 149, or 14 percent, of statistically selected complaints filed directly with the districts
during the same period. Examples of references to specific equipment, work area, and
work shift included in the complaints provided to mine operators included the following:

        D11 cat dozer #1040,

        No. 3 entry of the 9A-6 North Section, and

        evening shift and owl shift.

CMS&H practice of providing copies of complaints to mine operators that contain
information that could identify complainants was not consistent with CMS&H policy and
increased the risk that violations or dangers will not be reported. These conditions
occurred because CMS&H management did not believe that the identification of a piece
of equipment or the location of a complaint was sufficient to endanger the complainant’s
anonymity. Moreover, they said this information was needed to allow the inspector to
find the alleged hazard.

Including specific information in the inspector’s copy of the complaint is needed to
effectively target the inspection. However, including such detail in the mine operator’s
copy of the complaint raises the risk that the complainant would be identified. CMS&H
should develop procedures that provide inspectors with the information they need to find


22                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


the alleged violation but do not provide the mine operator with information that may
disclose the complainant’s identity.

CMS&H initiated corrective action during the audit to address some of the process
weaknesses we identified. This action included:

         issuing guidance related to evaluating the seriousness of hazardous condition
          complaints, and

         developing training to ensure CMS&H personnel are aware of established
          practices and requirements provided under the Mine Act and MSHA policy.

Recommendations

The OIG recommends that the Acting Assistant Secretary for MSHA establish
management controls to improve hazardous condition complaint evaluation consistency
and compliance with laws and policies. These controls should include processes to
ensure:

 5.       Pre-inspection evaluations by ARs of the seriousness of complaints are
          documented.

 6.       Training and oversight is provided for appropriate determination of imminent
          danger hazardous condition complaints.

 7.       Copies of complaints provided to mine operators are consistent with MSHA’s
          guidelines to remove detailed information that could compromise a complainant’s
          identity.

Agency Response

For recommendation 5, CMS&H issued policy during the audit to clarify and remedy the
need for documentation of complaint evaluations by an AR. For recommendation 6,
CMS&H developed and provided training to 10 of its 11 districts. Training for the 11th
district was planned for completion by September 29, 2006. Further, MSHA said it will
incorporate the training in the mandatory AR training program provided by the National
Mine Safety and Health Academy. MSHA, however, disagreed with our characterization
of some of the imminent danger examples we provided in Tables 2 and 3 to support the
need for training and oversight. MSHA noted that imminent danger determinations are
professional judgment calls that utilize the depth and breadth of AR mining knowledge.

For recommendation 7, MSHA said it will implement another level of complaint
sanitization for mine operators where identification or references to specific equipment,
work area and work shift could potentially disclose a complainant’s identity.



U.S. Department of Labor—Office of Inspector General                                       23
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened


OIG Conclusion

Recommendations 5 and 6 are resolved and will be closed after the corrective action
has been implemented. We acknowledge MSHA for implementing corrective action for
recommendation 6 despite its disagreement with our characterization of some of the
imminent danger examples.

We recognize that imminent danger determinations are professional judgment calls that
utilize the depth and breadth of AR mining knowledge. Nevertheless, we continue to
believe our conclusions regarding the imminent danger examples are appropriate.
MSHA specifically questioned our example regarding "the energized high voltage in the
high voltage tub behind the section power center has exposed wires covered by plastic
tape." MSHA stated that "no miners were at risk on the best insulated, grounded and
most barricaded and guarded cable in the underground mine environment." However,
we maintain that unless and until MSHA actually inspects this equipment it is making
suppositions as to the exact conditions. Further, whether or not we agree on this one
example, MSHA did concur with the issue and that actions are needed.

Recommendation 7 is unresolved pending receipt of MSHA policy requiring another
level of complaint sanitization for mine operators where identification or references to
specific equipment, work area and work shift could potentially disclose a complainant’s
identity.

Objective 3 – Does MSHA effectively ensure hazardous condition complaint
              inspections are conducted timely, thoroughly, consistently, and in
              accordance with Federal law and MSHA policy?

Results and Findings

No. A significant number of hazardous condition complaint inspections were not
initiated timely, taking 2 days or more from the date they were received until an
inspection was started. These delays may have subjected miners to prolonged
hazardous conditions. Inspections were also not always conducted immediately as
required under Section 103(g)(1) of the Mine Act for hazardous condition complaints
alleging imminent danger. In addition, we could not determine whether inspections
were thorough, consistent, and in compliance with CMS&H policy because a significant
number of the inspector notes documenting inspection activities had no evidence of
supervisory review. Management should better define and monitor inspection
timeliness and implement controls to ensure compliance with laws, regulations, and
policies.

Timeliness of Hazardous Condition Complaint Inspections Needs Improvement

Improvements to CMS&H’s hazardous condition complaint process are needed to
ensure inspections are conducted timely. As previously discussed (see p. 16), the time


24                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


requirements for MSHA to respond to hazardous condition complaints under the law,
regulations, and its policies are imprecise. However, all convey a sense of urgency.
Terms such as “immediate” and “as soon as possible” are used to describe the
expectation for initiating an inspection of an alleged imminent danger or violation of a
mandatory health and safety standard.

To evaluate inspection timeliness, we examined separate statistical samples for
hazardous condition complaints filed with MSHA headquarters and filed directly with
CMS&H’s 11 districts. We estimated that 32 percent of hazardous condition complaints
filed with CMS&H headquarters and had inspections completed during January 1, 2005,
through March 30, 2006, took 2 days or more from the date headquarters notified the
district to the date an inspection was started. Additionally, we estimated that 15 percent
of the complaints filed directly with the districts took 2 days or more from the date the
complaint was filed to the date an inspection was started. These inspection delays may
have subjected miners to prolonged hazardous conditions.

The inspection delays occurred most often because inspectors generally did not work
weekends and holidays, other resource limitations (e.g., scheduling conflicts), and
inadequate management oversight. The inspection delays increased the risk that a
prolonged hazardous condition may lead to accidents, injuries, or fatalities. CMS&H
took corrective action during the audit to address some of the process weaknesses we
identified.

Inspection Timeliness for Hazardous Condition Complaints Made to Headquarters

We assessed inspection timeliness for hazardous condition complaints filed with
headquarters by measuring the period from district notification by headquarters to
inspection start. In addition, we determined whether there were valid reasons for delays
of 2 days or more. We considered a reason for delay valid if the delay did not
potentially subject a miner to a prolonged hazardous condition. For example, delayed
inspections for complaints citing record keeping issues or machinery temporarily out of
service did not subject miners to prolonged hazardous conditions.

We analyzed a statistical sample of 127 out of 336 hazardous condition complaints that
were filed with headquarters and had inspections completed during January 1, 2005,
through March 30, 2006. Forty-one, or 32 percent, took 2 days or more from complaint
receipt to inspection start, and may have subjected miners to prolonged hazardous
conditions. Table 4 summarizes our results.




U.S. Department of Labor—Office of Inspector General                                       25
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened



                                                 Table 4
                        District Notification to Inspection Start for
                  Hazardous Condition Complaints Made to Headquarters
                         January 1, 2005 through March 30, 2006

    District Notification to          Number of
    Inspection Start                 Complaints a                Percent            Two Days or More
    Same day                             32                         25
    Next day                             45                         36
    2 days                               10                          8
    3 days                               12                          9               41 or 32 percent
    > 3 days b                           19                         15
    Valid Delay c                         3                          2
    No Inspection d                       6                          5
    Total                               127                        100
Source:     OIG analysis of data provided by CMS&H
a
    Number includes mandatory 103(g) evaluations and other complaint evaluations conducted according
    to CMS&H policy.
b
    Delays for complaints in this category ranged from 4 to 84 days.
c
    Delays did not result in prolonged hazardous conditions at the mines. Examples included allegations
    relating to training provided by the mine operators and mine record keeping.
d
    CMS&H’s evaluation determined that the allegations did not constitute a violation or were outside of
    CMS&H’s jurisdiction.

Projecting the sample results to the 336 hazardous condition complaints filed with
headquarters from January 1, 2005, through March 30, 2006, we estimated that 1099
complaints took 2 days or more from district notification to inspection start, and may
have subjected miners to prolonged hazardous conditions.

Based on information provided by CMS&H, we summarized the reasons for the delay
for 35 of the 41 hazardous condition complaints made to headquarters that took 2 days
or more from district notification to inspection start, and may have subjected miners to
prolonged hazardous conditions.

         Thirteen inspections were delayed because the complaint was received on a
          Friday, weekend, or holiday. For example, complaints made on Fridays resulted
          in 3-day delays because MSHA personnel generally do not work weekends, so
          the complaint would not be acted on until the next business day (Monday).

         Fourteen inspections were delayed because of resource limitations. Examples
          included inspections requiring technical support that was not immediately


9
  At a 95 percent confidence level and a sampling error of +/- 3.11 percent, the value could fall within a
range from 88 to 129.

26                                              U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


       available and inspectors not available due to illness or other commitments
       (e.g., regular scheduled inspections, training).

      Eight inspections were delayed because the district had not provided adequate
       management oversight. Examples included district management not being
       aware inspections had not started and district management deciding to delay
       inspections because prior complaints at the same mine had similar allegations
       with negative findings (no citations issued).

See Exhibit A for descriptions of the 10 hazardous condition complaints made to
headquarters with the longest inspection delays that may have subjected miners to
prolonged hazardous conditions. The delays ranged from 6 to 84 days.

Inspection Timeliness for Hazardous Condition Complaints Made Directly to Districts

CMS&H’s 11 districts generally did not record the date hazardous condition complaint
evaluations were completed. Therefore, we were not able to measure the period from
evaluation completion to inspection start for complaints made directly to the districts.
Instead, we assessed inspection timeliness by measuring the period from complaint
receipt by the district to inspection start. In addition, we determined whether there were
valid reasons for delays of 2 days or more. Again, we considered a reason for delay
valid if the delay did not prolong a potential hazardous condition at the mine.

We analyzed a statistical sample of 149 out of 656 hazardous condition complaints
made directly to the districts from January 1, 2005, through March 30, 2006.
Twenty-two, or 15 percent, took 2 days or more from complaint receipt to inspection
start. These delays may have subjected miners to prolonged hazardous conditions.
Table 5 summarizes our results.




U.S. Department of Labor—Office of Inspector General                                       27
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened


                                                  Table 5

                         Complaint Receipt to Inspection Start for
                 Hazardous Condition Complaints Made Directly to Districts
                         January 1, 2005 through March 30, 2006

    Complaint Receipt to              Number of
    Inspection Start                 Complaints a             Percent             Two Days or More
    Same day                             61                      41
    Next day                             50                      34
    2 days                                3                       2
    3 days                                6                       4                 22 or 15 percent
    > 3 days b                           13                       9
    Valid delay c                         8                       5
    No inspection or
                                              8                     5
    insufficient information d
    Total                                  149                   100
Source:     OIG analysis of data provided by CMS&H

a
     Number includes mandatory 103(g) evaluations and other complaint evaluations conducted according
     to CMS&H policy.
b
     Delays for complaints in this category ranged from 4 to 10 days.
c
     Delays did not result in prolonged hazardous conditions at the mine. Examples included situations
     where the machinery cited in the complaint was out of service, the coal mine was idle, and blasting
     operations (the subject of the complaint) would not be conducted until a later date.
d
     CMS&H’s evaluation determined that the allegations did not constitute a violation or were outside of
     CMS&H’s jurisdiction, or the information was not available to verify dates of inspection.

Projecting the sample results to the 656 hazardous condition complaints made directly
to the district offices from January 1, 2005, through March 30, 2006, we estimated that
9710 took 2 days or more from district notification to inspection start, and may have
subjected miners to prolonged hazardous conditions.

Based on information provided by CMS&H, we summarized the reasons for the delay
for the 22 hazardous condition complaints made directly to the districts that took 2 days
or more from district notification to inspection start, and may have subjected miners to
prolonged hazardous conditions.

         Thirteen inspections were delayed because the complaint was received on a
          Friday, weekend, or holiday and inspectors were not authorized to work overtime.
          For example, complaints made on Fridays resulted in a 3-day delay because
          inspectors sometimes complete their 40-hour workweek Thursday or early Friday
          and are not authorized to work overtime.


10
  At a 95 percent confidence level and a sampling error of +/- 2.55 percent, the value could fall within a
range from 64 to 130.

28                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


      Five inspections were delayed because of inspector resource limitations.
       Examples include technical support that was not immediately available and
       inspectors not available due to other inspection commitments (e.g., accident
       investigation).

      Three inspections were delayed because the district had not provided adequate
       management oversight. Examples include districts deciding to delay inspections
       because prior complaints at the same mine had similar allegations with negative
       findings (no citations issued).

      One inspection was delayed because the district coordinated the investigation
       with the state mine agency in order to address allegations of drug use, which
       CMS&H does not regulate. However, the complaint also contained an allegation
       that two continuous mining machines were operating at the same time.

See Exhibit B for detailed descriptions of the 10 hazardous condition complaints made
directly to the districts with the longest inspection delays that may have subjected
miners to prolonged hazardous conditions. The delays ranged from 4 to 14 days.

Management Emphasis Needed to Improve Timeliness

The delayed inspections for complaints filed with both headquarters and the districts
occurred because CMS&H management had not placed adequate emphasis on
ensuring timely inspections. The lack of management emphasis resulted in several
process weaknesses including:

      Neither headquarters officials nor management in the 11 districts had developed
       processes to measure and monitor how quickly inspections related to hazardous
       condition complaints were started.

      The after-hours phone messages at district and field offices provided a list of
       contacts to report emergencies but not hazardous condition complaints. Also, an
       alternative method for contacting MSHA was not provided for instances when the
       listed emergency contacts could not be reached.

      Hazardous condition complaints forwarded by headquarters or filed directly with
       the districts during weekends and holidays were not addressed by CMS&H until
       the next business day.

      District-wide reviews for hazardous complaint inspection timeliness were not
       performed. CMS&H’s Accountability Program reviews of district and field office
       operations were limited to only one mine in the district or field office being
       reviewed. As such, no hazardous condition complaint process issues were
       identified during the reviews of district operations completed from
       January 1, 2005, through March 30, 2006, or during the field office reviews
       completed by the two district offices we visited during this audit.

U.S. Department of Labor—Office of Inspector General                                       29
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened



         In one district we visited, hazardous condition complaints were not reviewed
          during field office operations reviews as required by CMS&H policy. This
          occurred because the individual leading the field office reviews was also the
          district’s Hazardous Condition Complaint Coordinator. He believed that it was
          not necessary to perform this review because the task would involve reviewing
          his own work.

CMS&H initiated corrective action during the audit to address some of the process
weaknesses we identified. This action included:

         Developing procedures to monitor hazardous condition complaint inspection
          timeliness and include performance information in CMS&H management reports.
          In February 2006, CMS&H started using the new hazardous condition complaint
          tracking system to record and track complaint information. The new system is a
          component of the existing MSIS. CMS&H management said that this new
          system will facilitate oversight of inspection timeliness.

         Developing a policy requiring district and field offices to ensure after hours
          messages provide for a calling tree three people deep and reference the
          availability of the toll-free hotline for filing hazardous condition complaints.

         Developing a policy requiring headquarters management to monitor hazardous
          condition complaints received through MSHA’s Code-A-Phone and website
          during weekends and holidays and notify the districts when imminent danger
          complaints are alleged.

         Notifying district management that headquarters will expand the scope of its
          reviews to include monitoring the timeliness of hazardous condition complaint
          responses.

         Issuing a policy to district management stating that the persons responsible for
          hazardous condition complaints should recuse themselves from reviewing the
          effectiveness and efficiency of the district’s complaint system during internal
          reviews.

Recommendations

The OIG recommends that the Acting Assistant Secretary for MSHA establish
management controls to improve the timeliness of hazardous condition complaint
inspections. These management controls should ensure:

 8.       Processes are developed to improve inspection timeliness for complaints made
          to both headquarters and the districts. This includes ensuring hazardous
          condition complaint inspection timeliness is measured, monitored, and systemic
          reasons for delays are identified and addressed.

30                                           U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened



     9.   Segregation of duties is maintained when individuals responsible for managing
          district hazardous condition complaint processes are included on headquarters or
          district review teams.

Agency Response

CMS&H initiated corrective action during the audit. For recommendation 8, CMS&H is
developing procedures to monitor inspection timeliness and include performance
information in management reports. CMS&H also developed policy that will improve the
monitoring of hazardous complaints received by headquarters and the districts after
hours or on weekends and holidays. For recommendation 9, CMS&H issued a policy to
district management stating that the persons responsible for hazardous condition
complaints should recuse themselves from reviewing the district’s complaint system
during internal reviews. [The corrective action is more fully discussed on page 30 of this
report.]

OIG Conclusion

Recommendations 8 and 9 are resolved. The recommendations will be closed after the
corrective action has been implemented.

MSHA Lacks Assurance that Hazardous Condition Complaint Inspections Are
Thorough, Consistent, and Comply with the Mine Act and MSHA Policy

Improvements are needed to ensure hazardous condition complaint inspections are
conducted thoroughly, consistently, and in accordance with the Mine Act and MSHA
policy. We identified instances where CMS&H practices were not consistent with the
Mine Act or MSHA policy. These practices related to (1) conducting immediate
inspections of complaints alleging imminent danger and (2) supervisory review of
hazardous condition complaint inspections. These process weaknesses increased the
risk that dangers or violations exist but are not reported or corrected.

These conditions occurred because CMS&H management had not placed adequate
emphasis on oversight of hazardous condition complaint inspections.

Inspections of Imminent Dangers Not Always In Compliance with the Mine Act

CMS&H did not always conduct immediate inspections of imminent danger hazardous
condition complaints as required under Section 103(g)(1) of the Mine Act. According to
this provision of the law, whenever a miner or miner representative has reasonable
grounds to believe that, “. . . an imminent danger exists, such miner or representative
shall have a right to obtain an immediate inspection. [Emphasis added.]”11 Imminent
danger is defined as the existence of any condition or practice in a coal or other mine

11
     Section 103(g) of the Mine Act.

U.S. Department of Labor—Office of Inspector General                                       31
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened


which could reasonably be expected to cause death or serious physical harm before
such condition or practice can be abated.

CMS&H judged 10 hazardous condition complaints received from January 1, 2006,
through March 30, 2006, to involve a potential imminent danger.12 Our review
determined that an “immediate inspection”13 was not performed in 4 out of 10 cases.
For these four cases, the inspections were started from 1 to 5 days after the complaint
was filed. Table 6 summarizes the results.

                                                Table 6

                           Imminent Danger Complaint Inspections
                           January 1, 2006 through March 30, 2006

                        Date                       Date of                 Complaint Receipt to
             a
Number                  Filed                    Inspection                  Inspection Start
   1                   1/3/06                       1/5/06                          2
   2                   1/4/06                       1/4/06                          0
   3                   1/23/06                     1/24/06                          1
   4                   1/26/06                     1/26/06                          0
   5                   1/26/06                     1/26/06                          0
   6                   2/16/06                     2/16/06                          0
   7                   2/23/06                     2/23/06                          0
   8                   2/23/06                     2/23/06                          0
   9                   3/15/06                     3/16/06                          1
  10                   3/23/06                     3/28/06                          5
Source: OIG analysis of data provided by CMS&H
a
     Number includes mandatory 103(g) evaluations and other complaint evaluations conducted according
     to CMS&H policy.

The Mine Act and MSHA policy stipulate that allegations of imminent danger merit
prompt attention. Failure to conduct timely inspections of these imminent danger
hazardous condition complaints could result in death or physical harm to a miner.

These conditions occurred because CMS&H did not have adequate controls in place to
ensure complaints alleging imminent danger were inspected immediately after filing in
accordance with the Mine Act. For example, CMS&H’s Accountability Program reviews
of district and field office operations were limited to only one mine in the district being
reviewed. District-wide reviews for compliance with laws and policy relating to
hazardous condition complaints were not performed. As such, no hazardous condition

12
   Prior to 2006, MSHA did not have a tracking mechanism in place to identify imminent danger
complaints.
13
   For purposes of this audit, we defined “immediate inspection” as one which was started the same day
as the complaint was received.

32                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


complaint process issues were identified during the district office reviews completed
from January 1, 2006, through March 30, 2006, or during the field office reviews
completed by the two districts we visited during this audit.

Supervisory Review of Inspector Field Notes Was Not Always Documented

CMS&H had limited assurance that hazardous complaint inspections were thorough,
consistent, and in compliance with CMS&H policy because a significant number of the
inspector notes documenting inspection activities had no evidence of supervisory
review. Inspector notes and other supporting documents showed that each of the
allegations was addressed for the complaints included in our statistical samples.
However, because supervisory reviews of inspector notes were not consistently
documented, there was no verification of the quality of the work performed.

Field supervisors review inspector notes to assess and ensure work quality. Field
supervisors are particularly qualified to perform these reviews because they possess
the experience, technical expertise and specific mine knowledge to evaluate an
inspector’s work quality. As such, we considered evidence of the field supervisor’s
review as an indication that hazardous condition complaint inspections were sufficient,
consistent, and in compliance with CMS&H policy.

We analyzed statistical samples of 127 out of 336 hazardous condition complaints
made to headquarters and 149 out of 656 hazardous condition complaints made directly
to district offices from January 1, 2005, through March 30, 2006. We found that 67, or
24 percent, of the 276 total hazardous condition complaints in our 2 samples were not
documented as reviewed by a supervisor. Additionally, 6, or 4 percent, of the 149
sampled hazardous condition complaints made directly to the districts did not have any
documentation indicating that inspector’s field notes were completed. Table 7
summarizes our results.




U.S. Department of Labor—Office of Inspector General                                       33
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened


                                               Table 7

           24 Percent of the Inspector Notes Were Not Signed By a Supervisor
                         January 1, 2005 through March 30, 2006

                                                                                 No
                                                    No           Percent      Inspector    Percent
                       Total         Sample      Supervisor        of           Field        of
                               a
Sample              Complaints        Size       Signature       Sample         Notes      Sample
Headquarters
Complaints                336           127           21            17             -           -
District
Complaints                656           149           46            31            6            4
Total                     992           276           67            24            6            2
Source:    OIG analysis of data provided by CMS&H
a
    Number includes mandatory 103(g) evaluations and other complaint evaluations conducted according
    to CMS&H policy.

This condition occurred because CMS&H management did not provide clear guidance
regarding requirements for supervisory review. To illustrate:

         CMS&H’s Supervisor’s Handbook (August 1, 1997) requires supervisors to
          review a representative number of inspection or investigation reports and
          appropriate notes. Management from two districts told us that they did not
          document supervisory review of inspector notes for all inspections because of
          this provision.

         CMS&H’s Coal General Inspection Procedures Handbook (April 2000) stated
          that, “the inspection supervisor is no longer required to date and initial each page
          of the notes reviewed.” This policy implied that at least one page should be
          signed but did not specifically state that requirement. Management from one
          district stated that they performed, but did not document their supervisory
          reviews on inspector notes because it was not required. Instead, they
          documented their supervisory and managerial reviews on complaint tracking
          forms.

         Management from one district stated that the supervisor’s initials on the final
          report and memo would evidence that the entire report, including the supporting
          inspector notes, was reviewed by the supervisor.

Without proper and consistent documentation of supervisory review, CMS&H had
limited assurance that the quality of complaint inspections had been independently
evaluated for thoroughness, consistency, and compliance with CMS&H policy.

During the audit, CMS&H was in the process of implementing a new computer-based
inspection tracking system to track the progress of mine inspections and to provide a

34                                            U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


higher degree of consistency in the completeness of each inspection. The system will
require inspectors and field supervisors to complete a certification that acknowledges
sufficient documentation, including inspector notes, have been completed and
maintained to evidence that minimum inspection requirements have been completed.
This certification increases assurance that hazardous condition complaint inspections
are conducted thoroughly, consistently, and in accordance with the Mine Act and MSHA
policy. This tracking system, if properly implemented and monitored, should improve
CMS&H’s ability to ensure that complaint inspections are thorough, consistent, and in
compliance with Federal laws and MSHA policy.

Recommendations

The OIG recommends that the Acting Assistant Secretary for MSHA establish
management controls to ensure:

10.    The expectation of timeliness for beginning inspections of “imminent danger”
       allegations is quantified in specific terms (e.g., number of hours), and the
       subsequent inspections are started within those specific time frames.

11.    Inspector notes receive appropriate supervisory review.

Agency Response

MSHA did not agree with recommendation 10. MSHA believed that the Mine Act and
CFR’s time requirements (”immediately” and “as soon as possible”) adequately
established the expectation for inspection timeliness. MSHA stated that a performance
metric for inspection timeliness was too binding, and may force abandonment of the
current approach on accepting hazardous condition complaints beyond the 103(g)
complaints filed in writing by miners and miner representatives. Additionally, MSHA
disagreed with our conclusion that an immediate inspection was not performed in 4 out
of the 10 cases that CMS&H categorized as “imminent dangers.” MSHA considered the
1- to 5-day delays to be appropriate because the inspections were conducted as “soon
as possible.” Specifically, MSHA noted that two inspections were initiated in less than
24 hours after the call was received; one inspection was addressed on the day of the
complaint when the mine operator was directed to investigate the alleged hazards prior
to the MSHA inspection occurring 2 days later; and one inspection was delayed 5 days
for multiple reasons including the need for multiple inspectors, the allegations related to
the 3rd shift, and a 2-day weekend.

MSHA also did not agree with recommendation 11. MSHA believed the
recommendation was redundant based on current practice. Specifically, MSHA’s
Inspection Tracking System requires field office supervisors to certify that inspector
notes and minimum inspection requirements have been completed. The tracking
system is discussed above. MSHA also believed that a more appropriate
recommendation from the OIG is that “CMS&H management provides clear guidance
on the requirements for supervisory review.”

U.S. Department of Labor—Office of Inspector General                                       35
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened


OIG Conclusion

Recommendation 10 is unresolved. As noted earlier regarding MSHA’s disagreement
with our recommendations that expectations for timeliness be quantified, we do not
advocate meeting standards of timeliness at the expense of appropriately addressing
safety concerns. However, we are not convinced that a standard of “as soon as
possible” is sufficient to drive inspection performance and results.

Additionally, we maintain that an immediate inspection was not performed in 4 out of the
10 cases that CMS&H categorized as imminent dangers. MSHA noted that two
inspections were started in less than 24 hours after the call was received.14 We believe
that each hour is critical for complaints alleging imminent danger and that any delay
should be avoided. For example, MSHA told us that one of the complaints addressed
within 24 hours was received on a Monday morning and the inspection started Tuesday
morning. CMS&H did not provide a reason why the inspection was delayed until the
next morning. As such, we concluded that the inspection was not immediate. For the
third delayed inspection, we did not consider CMS&H requiring the mine operator to
investigate the complaint a valid reason for delaying the inspection. In this instance, the
inspection conducted 2 days later resulted in five citations, two of which noted that the
gravity of the safety violation was “Significant and Substantial” and injury or illness was
“Reasonably Likely.” For the fourth delayed inspection, we concluded that the reasons
provided by CMS&H were not valid reasons for a 5-day delay (logistical problems
associated with the need for two inspectors, allegations related to the 3rd shift, and a 2-
day weekend).

Despite MSHA’s disagreement with recommendation 11, it is resolved. Effective
implementation of MSHA’s Inspection Tracking System will meet the intent of the
recommendation. MSHA was in the process of implementing the tracking system
during the audit. As such, we did not test whether the system effectively ensured
inspector notes received appropriate supervisory review. The recommendation will be
closed after MSHA provides documentation supporting that implementation of the
Inspection Tracking System is complete. As suggested in MSHA’s proposed
recommendation, this implementation should include providing clear guidance on the
requirements for supervisory review.




14
  Information provided by MSHA indicated that the actual times the complaints were received were not
recorded. MSHA based the time of receipt for one complaint on the field office supervisor’s recollection
that complaints from the particular mine tend to be received in the morning. MSHA based the time of
receipt for the other complaint on the time the complaint was entered into the complaint tracking system.

36                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


Objective 4 –     Does MSHA management effectively use hazardous condition
                  complaint process results to direct oversight and enforcement
                  responsibilities?

Results and Findings

No. CMS&H management analysis relied on reports that were based on complaints
filed solely with MSHA headquarters; about one-third of the total complaints. The
reports did not include complaints filed directly with the districts. In addition, information
reported to the public on hazardous condition complaints was incomplete. The
incomplete reporting may have impacted CMS&H oversight and enforcement decisions
and public perception of CMS&H enforcement responsibilities. CMS&H management
should ensure that reports on the hazardous condition complaint process include
information on all complaints, regardless of where or how they were filed.

Reporting on Hazardous Condition Complaint Results Was Based on Incomplete
Data

MSHA can strengthen oversight, enforcement, and public confidence by ensuring
hazardous condition complaint data used for management decision making or public
reporting are complete. CMS&H officials used complaint data summarized in
management reports to analyze activity trends and direct oversight and enforcement.
However, these reports were based on complaints filed solely with MSHA headquarters.
The reports did not include complaints made directly to CMS&H’s 11 districts. The
district complaints represented 64 percent of the 813 total complaints received by
CMS&H during CY 2005. The incomplete data may have adversely affected CMS&H’s
ability to (1) evaluate existing efforts to address hazardous condition complaints;
(2) provide timely resources to direct oversight and enforcement responsibilities; and
(3) develop strategies to effectively manage the overall CMS&H program.

Hazardous condition complaint information reported on MSHA’s public website was also
incomplete. MSHA reported that 402 coal mine hazardous condition complaints were
received in CY 2004, the most current year reported. Documentation provided by
CMS&H indicated that the reported number was understated by 285 complaints or 41
percent of the 687 total complaints received during the year. The incomplete reporting
may have impacted public perception of mine safety and CMS&H enforcement
responsibilities.

These conditions occurred because (1) CMS&H management had decided not to
expend the resources needed to maintain a manual process to include the district data,
and (2) MSHA management had not established a process to ensure complaint data
reported to the public were complete.15


15
  MSHA’s Program Evaluation Information Resources (PEIR) group maintains the website and reports
hazardous condition complaint information based on data entered into MSIS by inspectors.

U.S. Department of Labor—Office of Inspector General                                               37
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened


The Standards for Internal Control in the Federal Government requires, in part, the
following:

        Activities need to be established to monitor performance measures and
         indicators. Control activities help to ensure that all transactions are completely
         and accurately recorded.

        For an entity to run and control its operations, it must have relevant, reliable, and
         timely communications relating to internal as well as external events.

CMS&H initiated some corrective action during the audit which included issuing policy to
incorporate district complaints in management reports.

Management Reports Did Not Include District Complaints

CMS&H management relied on management reports to analyze enforcement activities
and make informed decisions. CMS&H staff compiled a series of electronic reports –
referred to as a Digital Dashboard – management could access as needed. The Digital
Dashboard included the following data relating to hazardous condition complaints:

        Number of coal mine complaints made to headquarters by month

        Number of coal mine complaints made to headquarters by district

        Percentage of positive (citation issued) and negative (no citation issued)
         complaint findings by district

We tested the number of coal mine hazardous condition complaints reported in the
Digital Dashboard for CY 2005 to determine whether the reported data was
(1) supported by documentation maintained by headquarters or the districts and
(2) included complaints made to both headquarters and the districts. We found that the
number of headquarters complaints reported in the Digital Dashboard was accurate.
Each of the complaints reported was supported by documentation maintained by
headquarters. However, we found that hazardous condition complaints made directly to
CMS&H’s 11 districts were not included in the Digital Dashboard. Table 8 shows that
the district complaints represented 64 percent of the total coal mine complaints made to
MSHA during CY 2005.




38                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 05-06-006-06-001
                                                              Coal Mine Hazardous Condition Complaint
                                                                      Process Should Be Strengthened


                                                  Table 8
                65 Percent of Coal Mine Hazardous Condition Complaints
                         Were Excluded From Digital Dashboard
                                         CY 2005
                                                      Number of     Percent of
                                                                a
                                                     Complaints        Total
    Headquarters complaints included in Digital
    Dashboard                                            290             36
    District complaints excluded from Digital
    Dashboard                                            523             64
                          Total coal mine complaints     813            100
Source:   OIG analysis of CMS&H Digital Dashboard and complaint data provided by CMS&H’s 11 districts
a
    Number includes mandatory 103(g) evaluations and other complaint evaluations conducted according
    to CMS&H policy.

Not including hazardous condition complaints made directly to the districts was
inconsistent with the Standards for Internal Control in the Federal Government because
transactions were not completely recorded and because the data did not provide
relevant, reliable, and timely communications relating to internal events. Moreover,
incomplete data adversely effects CMS&H’s ability to (1) evaluate existing efforts to
address hazardous condition complaints, (2) provide timely resources to direct oversight
and enforcement responsibilities, and (3) develop strategies to effectively manage the
overall CMS&H program.

For example, CMS&H management analyzed Digital Dashboard complaint data to
identify activity trends and determine whether follow-up within the districts was needed.
If a specific district had a significant number of complaints and a high percentage had
negative outcomes (no citations), district inspectors were directed to meet with mine
management and miner representatives to determine and address the cause for the
unsubstantiated complaints. According to CMS&H management, minimizing
unsubstantiated complaints reduced the demand on limited inspection resources. Not
including district complaints in the Digital Dashboard may have resulted in incomplete
analysis and the misallocation of CMS&H inspection resources.

The district complaint data were not included in the Digital Dashboard because CMS&H
management had decided not to expend the resources needed to maintain a manual
process to include the district data. They, therefore, delegated responsibility for the
district complaints to district management. Management should ensure that data on all
complaints are included in the Digital Dashboard’s management reports.

CMS&H initiated corrective action during the audit to address some of the process
weaknesses we identified. This action included:




U.S. Department of Labor—Office of Inspector General                                                    39
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened


        issuing policy in July 2006 to incorporate hazardous condition complaints made
         directly to districts in the Digital Dashboard, and

        planning enhancements to the Digital Dashboard so that complaint process
         results can be used more effectively to direct oversight and enforcement
         responsibilities. These enhancements will include metrics for analyzing
         complaint data for timeliness, violation trends, and imminent danger complaints.

Hazardous Condition Complaints Reported on MSHA’s Website Were Understated

MSHA’s website, located at www.msha.gov, provides the public with fact sheets
detailing significant trends in the mine industry and MSHA enforcement. One such fact
sheet, Mine Safety and Health at a Glance, reports the following data related to
hazardous condition complaints:

        total hazardous condition complaints made to MSHA during CY 1995 through
         2004 (CMS&H plus Metal and Nonmetal Mine Safety and Health);

        coal mine hazardous condition complaints made during CY 1995 through 2004;
         and

        metal and nonmetal mine hazardous condition complaints made during CY 1995
         through 2004.

We tested the number of coal mine hazardous condition complaints reported for
CY 2004 to determine whether the data was supported by documentation maintained by
headquarters or the districts. The number of complaints reported was not complete.
Hazardous condition complaint documentation provided by headquarters’ Division of
Safety and the districts significantly exceeded the 402 complaints reported in the
website fact sheet. Table 9 shows that the number reported for CY 2004 was
understated by 41 percent.




40                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                          Coal Mine Hazardous Condition Complaint
                                                                  Process Should Be Strengthened


                                               Table 9

                          CMS&H Hazardous Condition Complaints
                          Reported on MSHA’s Website for CY 2004
                             Were Understated By 41 Percent

                                                                  Number of
                                                                 Complaints a           Percent
    Headquarters complaints with documented support                 234                   33
    District complaints with documented support                     453                   66
      Total documented complaints                                   687                  100
    Reported in website fact sheet                                  402                   59
      Total understated                                             285                   41
Source: OIG analysis of MSHA website data and hazardous condition complaint data provided by
        CMS&H’s 11 districts.

a
    Number includes mandatory 103(g) evaluations and other complaint evaluations conducted according
    to CMS&H policy.

The understatement of hazardous condition complaints reported on MSHA’s public
website was not consistent with the Standards for Internal Control in the Federal
Government because internal controls did not provide reasonable assurance regarding
the reliability of reports for internal and external use. The incomplete reporting may also
impact public perception of mine safety and CMS&H enforcement responsibilities. For
example, the difference between the number of complaints reported for CY 2003 (345)
and CY 2004 (402) indicated an upward trend of 57 complaints, or 17 percent. Since at
least CY 2004’s data were incomplete, any conclusions regarding the upward trend and
its significance relative to mine safety and CMS&H enforcement responsibilities would
also be inaccurate.

The understatement occurred because MSHA management had not established
controls to ensure hazardous condition complaint data reported on MSHA’s public
website were complete. CMS&H management explained that the number of complaints
reported was based on the number of inspections entered in the MSIS and coded as
“hazardous condition complaint inspections.” They said, however, that a complainant’s
identity is sometimes protected by coding a hazardous condition complaint inspection
as another type of inspection (e.g., a spot inspection) or including it as part of a
regularly scheduled inspection. The data reported on the website did not include
hazardous condition complaint inspections that were recoded for confidentiality
purposes or included as part of another inspection activity.

MSHA’s Program Evaluation Information Resources (PEIR) group maintains the
website and reports hazardous condition complaint information based on the inspection
information entered in MSIS. MSHA should ensure that the number of hazardous
condition complaints reported is based on actual complaints rather than inspections
conducted.

U.S. Department of Labor—Office of Inspector General                                               41
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened


New Complaint Tracking System Will Facilitate Data Completeness

In February 2006, CMS&H started using the new Hazardous Condition Complaint
Tracking System to record and track complaint information for both headquarters and
district generated complaints. CMS&H management said that this new system will
facilitate the inclusion of complaints made directly to the districts in their Digital
Dashboard. They also said that the new system will provide a basis for reporting
complete complaint information on MSHA’s public website.

Recommendations

The OIG recommends that the Acting Assistant Secretary for MSHA establish
management controls to ensure:

12.   Hazardous condition complaint data used to direct CMS&H oversight and
      enforcement are complete. This includes ensuring complaints made directly to
      the 11 coal districts are included in management reports.

13.   Hazardous condition complaint data reported by MSHA to the public are
      complete.

Agency Response

For recommendation 12, MSHA stated they initiated action during the audit to address
some of the process weaknesses they identified. This action included incorporating
hazardous condition complaints made directly to districts in the Digital Dashboard; and
planning enhancements to the Digital Dashboard so that complaint process results can
be used more effectively to direct oversight and enforcement responsibilities. [The
corrective action is more fully discussed on pages 39-40 of this report.]

For recommendation 13, MSHA’s PEIR group is evaluating the utility of the report on
MSHA’s public website given the shortcomings in the reporting. PEIR will also work
with CMS&H to determine whether there are enhancements to its hazardous condition
complaint database which can facilitate more accurate reporting.

OIG Conclusion

Recommendation 12 is resolved. The recommendation will be closed after the
corrective action has been implemented. Recommendation 13 is unresolved pending
receipt of a specific plan to ensure hazardous condition complaint data reported by
MSHA to the public are complete.



Elliot P. Lewis
August 24, 2006

42                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened




Exhibits




U.S. Department of Labor—Office of Inspector General                                       43
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




44                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                             Coal Mine Hazardous Condition Complaint
                                                                     Process Should Be Strengthened

                                       EXHIBIT A
              10 Longest Delays from District Notification to Inspection Start
                   For Headquarters Hazardous Condition Complaints
                        January 1, 2005, through March 30, 2006

The table below shows the 10 hazardous condition complaints made to CMS&H
headquarters from January 1, 2005, through March 30, 2006, that had the longest
delays from district notification to inspection start. a These delays may have subjected
miners to prolonged hazardous conditions.

No.      Allegation(s)                                       Notification      Inspection       Delay
                                                                date            start date      (days)
    1    Miners consuming alcohol and operating              11/21/2005         2/13/2006         84
         equipment.
    2    The main line belts are not being                     9/29/2005       10/25/2005           26
         maintained properly.
    3    Dozer has fumes coming out of vents.                  3/11/2005        3/31/2005           20
         Heater has been modified. Defroster
         does not work. Wipers do not work.
    4    Track is not being watered to control dust.           2/3/2006         2/21/2006           18
         Switches have coal and dirt buildup
         causing vehicles to drag and create dust.
    5    Floor grating missing in plant. Refuse on             2/18/2005        3/8/2005            18
         floor of plant. Untreated mine water being
         discharged. Ponds overflowing.
    6    Miners are using drugs at the working                 2/3/2006         2/15/2006           12
         section.
    7    Inadequate fire suppression on belt drive             1/10/2006        1/20/2006           10
         in bunker and in main north #1.
    8    The operator is mining out of another                 6/21/2005        6/28/2005           7
         plant and there are hazards with dropping
         cars.
    9    Power center not being maintained in                  1/17/2006        1/24/2006           7
         safe operating condition. The visual
         disconnect handle must be blocked or
         weighed down in order for the power to
         remain set on the belt power center.
10       Excessive coal dust accumulation at                  12/29/2005        1/4/2006            6
         tipples. The welding truck safety
         inspections are being submitted but
         supervisors are not recording them.
Source: OIG analysis of data provided by Coal Mine Safety and Health

a
    Data includes mandatory 103(g) investigations and other complaint investigations conducted in
    accordance with CMS&H policy.


U.S. Department of Labor—Office of Inspector General                                                     45
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




46                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                             Coal Mine Hazardous Condition Complaint
                                                                     Process Should Be Strengthened

                                       EXHIBIT B
              10 Longest Delays from Complaint Receipt to Inspection Start
                     For District Hazardous Condition Complaints
                       January 1, 2005, through March 30, 2006

The table below shows the 10 hazardous condition complaints made direct to CMS&H’s
11 districts from January 1, 2005 through March 30, 2006, that had the longest delays
from complaint receipt to inspection start. a These delays may have subjected miners
to prolonged hazardous conditions.

No.      Allegation(s)                                        Receipt         Inspection            Delay
                                                                date           start date           (days)
    1    Bed shifts side-to-side, raising front tire         11/22/2005        12/6/2005              14
         6-8 feet off the ground.
    2    The complaint cited problems at the long            12/27/2005        1/5/2006               9
         wall and with the phone, lock and start-up
         warning not working.
    3    The mine has rusted and deteriorated                 9/19/2005        9/27/2005              8
         beams and columns. There were
         Improper repairs to the beams. A vent
         pipe is ready to fall.
    4    There is drug use and the mine roof in               9/15/2005        9/21/2005              6
         bad condition.
    5    There is drug use. Also, two continuous              1/12/2006        1/18/2006              6
         miners are operating at the same time.
    6    The foreman is using drugs and smoking.              2/17/2006        2/23/2006              6
         The belt is shut off when MSHA is on site.
         There are no curtains. Coal is mined and
         bolted without air.
    7    There is inadequate warning prior to shot            4/27/2005        5/3/2005               6
         being fired in pit.
    8    Inby unsupported roof; improper seals;               1/26/2006        1/31/2006              5
         operator cheating on respirable dust

    9    Smoking underground                                  7/22/2005        7/27/2005              5

10       Brakes out of adjustment on bulk trucks;             5/20/2005        5/24/2005              4
         one truck with broken cross member; no
         maintenance on equipment

Source:    OIG analysis of data provided by Coal Mine Safety and Health
a
    Data includes mandatory 103(g) investigations and other complaint investigations conducted in
    accordance with CMS&H policy.


U.S. Department of Labor—Office of Inspector General                                                      47
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




48                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened




Appendices




U.S. Department of Labor—Office of Inspector General                                       49
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




50                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


                                                                               APPENDIX A
Background

U.S. Coal Industry

Coal is used to produce more than 52 percent of the electricity generated in the United
States. Because of increasing demand for electric power and higher natural gas and oil
prices, the Energy Information Administration expects U.S. coal production to increase
about 1.1 percent annually from 2004 to 2015.

The DOL’s Annual Report for Fiscal Year (FY) 2005 states that the expected, continued
increase in coal production will likely result in an increased number of smaller operators
with less experience and generally less sophisticated safety and health programs than
their larger industry counterparts. In addition, these new operators will likely employ
many new and untrained miners who are vulnerable to safety and health risks.

In CY 2005, there were approximately 2,100 coal mines, located in 27 states, and
employing a total of 116,000 workers on average. There were 22 fatalities and more
than 5,100 non-fatal injuries during the year.

In the first 6 months of CY 2006, there were 33 coal mine fatalities and more than 2,400
non-fatal injuries.

Mine Safety and Health Administration (MSHA)

MSHA was established in 1978 by the Federal Mine Safety and Health Act of 1977
(Mine Act). The Mine Act transferred the Federal enforcement program from the
Department of the Interior to the Department of Labor (DOL) and placed coal mines and
metal/nonmetal mines under a single law.

As a result of the increase in coal mine fatalities in early CY 2006, the Mine
Improvement and New Emergency Response (MINER) Act was signed into law on
June 15, 2006. The MINER Act includes provisions for updated emergency response
plans, increased training and availability of rescue teams, improved communication
technology, and training programs for miners and mine inspectors.

MSHA is responsible for administering the provisions of both the Mine Act and the
MINER Act. MSHA’s primary goals are (1) enforcing compliance with mandatory safety
and health standards to eliminate fatal accidents; (2) reducing the frequency and
severity of nonfatal accidents; (3) minimizing health hazards; and (4) promoting
improved safety and health conditions in the nation's mines. MSHA’s budgeted
operating costs totaled $278 million for CY 2006 and $279 million for CY 2005.

The Office of Coal Mine Safety and Health (CMS&H) is responsible for enforcing the
Mine Act at coal mines. It administers 11 districts and 45 associated field offices with
staff totaling approximately 1,000. Eight of its 11 districts are located in the Eastern

U.S. Department of Labor—Office of Inspector General                                       51
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened


United States near coal seams located in or near the Appalachian Mountains.
CMS&H’s budgeted operating costs totaled $117 million for CY 2006 and $115 million
for CY 2005.

Hazardous Condition Complaints

Section 103(g) of the Mine Act gives miners and representatives of miners the right to
file a confidential complaint about a violation of the Mine Act, a mandatory health or
safety standard, or an imminent danger at any mine. The implementing regulations for
this complaint process are contained in the Code of Federal Regulations (CFR), Title
30, Part 43 The Mine Act and Federal regulations require these complaints to be
provided in writing and signed by the miner or representative of the miners. However,
MSHA policy is less restrictive and accepts hazardous condition complaints originating
from someone other than a miner or representative of the miners and verbal complaints.

Hazardous Condition Complaint Process

Hazardous condition complaints can be submitted to MSHA headquarters (via toll-free
hotline or website) or directly to a district or field office within CMS&H (via phone, fax,
mail, or in-person). MSHA’s Hazard Complaint Procedures Handbook describes
procedures for headquarters and District staff to process and investigate hazard
condition complaints. In general, MSHA personnel evaluate each complaint and, if
appropriate, conduct an inspection to determine the validity of the allegations.

Complaint evaluations must be conducted by an Authorized Representative. The first
step in the evaluation process is to categorize the complaint as either a “103(g)” (i.e., a
written complaint filed by a miner or miner representative) or “other” (i.e., verbal
complaint from a miner or a complaint submitted by a non-miner). Next, the evaluation
assesses whether the complaint allegations involve a potential violation of the Mine Act
or mandatory safety and health standards and the potential severity of the allegations
as (1) a violation posing an imminent danger; (2) a violation posing a serious hazard;
(3) a violation, but not a serious hazard; or (4) not a violation. For complaints filed with
MSHA headquarters, the evaluation process is completed by personnel from CMS&H’s
Division of Safety. For complaints filed directly with a district or field office, the
evaluation process is completed by a designated district official.

If the evaluation determines that the complaint involves a potential violation, an
inspection is required. MSHA personnel create a “sanitized” version of the complaint by
removing references that may identify the complainant. Complaints filed in
headquarters are forwarded to the appropriate district office for inspection. Once
received in the district office, whether through headquarters or directly from a
complainant, a district official (generally the Assistant District Manager (ADM)) or DM
reviews the complaint and assigns it to the appropriate field office (FO) supervisor for an
inspection. The FO supervisor then assigns the complaint to a coal mine inspector.



52                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


The assigned MSHA inspector reviews the complaint and related information (i.e., the
mine file and applicable “records books” at the field office) and travels to the mine site.
At a pre-inspection conference, the MSHA inspector provides both the mine operator
and miner representatives with a copy of the sanitized complaint. The inspector, who
may be accompanied by representatives of the operator and miners, then proceeds to
investigate the allegations specified in the complaint. As needed, the inspector may
take air, dust, or other samples to determine if there is a violation of a mandatory safety
standard.

At a post-inspection conference, the MSHA inspector informs all parties of the results of
the investigation. The inspector issues citations/orders for violations found. If there are
no violations, the inspector issues a Notice of Negative Findings to be posted on the
mine bulletin board. After the inspection, the inspector returns to the field office to
complete the field notes and submit them with supporting documentation (i.e., citations)
to the field office supervisor for review.

MSHA policy requires that both headquarters and each district office maintain a tracking
system to record how each complaint is handled and resolved. After the investigation is
completed, the DM or his/her designee signs off on a report from the ADM that
documents the findings for each allegation in the complaint. The report includes
supporting documents such as citations and field notes. If the complaint originated at
headquarters, the district office should forward a copy of the investigation report to the
CMS&H Administrator for review and approval within 30 days after the date the
complaint was filed.




U.S. Department of Labor—Office of Inspector General                                       53
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




54                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


                                                                               APPENDIX B
Objectives, Scope, Methodology, and Criteria

Objectives

We performed audit work to accomplish four specific objectives. We answered the
following questions:

   1. Is MSHA’s hazardous condition complaint process promoted effectively to coal
      miners, coal miners’ representatives, and other stakeholders?

   2. Does MSHA effectively ensure hazardous condition complaint evaluations are
      conducted timely, consistently, and in accordance with Federal law and MSHA
      policy?

   3. Does MSHA effectively ensure hazardous condition complaint inspections are
      conducted thoroughly, timely, consistently, and in accordance with Federal law
      and MSHA policy?

   4. Does MSHA management effectively use complaint process results to direct
      oversight and enforcement responsibilities?

Scope and Methodology

To accomplish our objectives, we obtained an understanding of CMS&H’s hazardous
condition complaint policies and procedures and of applicable Federal laws and
regulations. We interviewed CMS&H officials at headquarters and two district offices;
management and miners at four coal mines; and UMWA officials and representatives.
We also sent a standard questionnaire to each CMS&H district office and reviewed
CMS&H’s hazardous condition complaint data. In addition, we statistically selected
samples of hazardous condition complaints filed with MSHA headquarters and directly
with CMS&H district offices and tested various attributes of the complaint process.

We only tested those controls necessary to address our objectives. We conducted
fieldwork from March 2006 through August 2006, and performed our work in
accordance with generally accepted government auditing standards for performance
audits.

Site Visits

We made site visits to CMS&H headquarters in Arlington, Virginia; CMS&H District 2 in
Hunker, Pennsylvania, including the Ruff Creek and Johnston field offices; and CMS&H
District 3 in Morgantown, West Virginia, including the St. Clairsville field office. We
judgmentally selected these locations from among the CMS&H’s 11 districts and 45 field
offices based on several factors that included the volume of hazardous condition


U.S. Department of Labor—Office of Inspector General                                       55
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened


complaints and characteristics of mines in each district (i.e., number of miners, injury
rates, and union presence). In addition, we judgmentally selected and visited two coal
mines in each of these two districts that represented a combination of these factors.
We used data provided by CMS&H for January 1, 2005, through March 30, 2006, to
make our selections. See Table 10 below.

                                                 Table 10

                                                Site Visits

    Description                           Location                Basis for Selection
    District 2a                               PA                  Low complaint volume (66)
                                                                  High number of miners (6,209)
    Coal Mine 1b                              PA                  High complaint volume
                                                                  High number of miners
                                                                  High number of injuries
                                                                  Unionized
    Coal Mine 2b                              PA                  Low complaint volume
                                                                  Low number of miners
                                                                  High injury rate
                                                                  Non-union
    District 3a                              WV                   High complaint volume (115)
                                                                  High number of miners (7,743)
    Coal Mine 3b                             WV                   High complaint volume
                                                                  High number of miners
                                                                  Unionized
    Coal Mine 4b                             OH                   Low complaint volume
                                                                  High number of miners
                                                                  Non-union
Source:     OIG analysis of hazardous condition complaint and coal mine data (i.e., coal production,
            number of miners, and union presence) provided by CMS&H headquarters.
a
    The low and high ranges were based on the levels of hazardous condition complaints and miners
    employed among the 11 districts.
b
    The low and high ranges were based on the levels of hazardous condition complaints, miners
    employed, and rate of injury among all coal mines in the corresponding districts.

At each district, we reviewed a statistical sample of complaint files and interviewed key
personnel using a standard set of questions related to our audit objectives. At the
selected coal mines, we interviewed mine management, miners, and union
representatives to gain their feedback and perspective on CMS&H’s hazardous
condition complaint process. We also interviewed UMWA officials at their headquarters


56                                               U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


in Arlington, Virginia, to obtain similar information. We conducted site visits from
March 2006 through June 2006.

Questionnaire

In addition to our site visits, we sent a standard questionnaire to management in 10 out
of 11 CMS&H districts to obtain their perspective and feedback on the hazardous
complaint process in their respective district and in headquarters. We used questions
similar to our onsite interviews to obtain comparable information. We did not administer
a questionnaire to District 3 and instead placed reliance on information collected during
our on site interviews with district management and staff.

Promotion of the Complaint Process

In addition to the interviews, questionnaire, and site visits discussed above, to
determine whether CMS&H effectively promoted its hazardous condition complaint
process to coal miners, coal miners’ representatives, and other stakeholders, we
reviewed headquarters and districts’ promotion policies and practices and various tools
(i.e., websites, printed materials) used to promote the complaint process. We also
reviewed the contract and the contractor’s performance related to receipt of complaints
through the Code-A-Phone.

Evaluation of Complaints

In addition to the interviews, questionnaire, and site visits discussed above, to
determine whether hazardous condition complaint evaluations were conducted timely,
consistently and in accordance with Federal law and MSHA policy, we obtained a walk-
through of the process for evaluating hazardous condition complaints, analyzed the
process, identified control points and deficiencies, and reviewed internal reports for any
related issues.

We also selected two random stratified samples of hazardous condition complaints to
test various attributes of CMS&H’s processes for evaluating complaints at headquarters
and all districts:

      127 hazardous condition complaints from a list of 336 closed hazardous
       condition complaints made to headquarters from January 1, 2005, to
       March 30, 2006, and

      149 hazardous condition complaints from a list of 656 closed hazardous
       condition complaints made to districts from January 1, 2005, to March 30, 2006.

Our testing included reviewing the amount of time it took for incoming complaints to be
evaluated and whether evaluations were consistent and in accordance with the Mine
Act or MSHA policy or practice. These included reviewing hazardous condition
complaints for compliance with requirements for qualified personnel to evaluate the

U.S. Department of Labor—Office of Inspector General                                       57
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened


seriousness of complaints of dangers or violations and protecting complainant
confidentiality.

Inspection of Complaints

In addition to the interviews, questionnaire, and site visits discussed above, to
determine whether complaint inspections were conducted thoroughly, timely,
consistently, and in accordance with Federal law and MSHA policy, we obtained a walk-
through of the process for investigating hazardous condition complaints, analyzed the
process, identified control points and deficiencies, and reviewed internal reports for any
related issues.

Using our two statistical samples, we tested a number of attributes related to timeliness,
thoroughness and compliance with confidentiality requirements. We also reviewed
whether all allegations in a complaint were investigated. In addition, we reviewed
whether inspector field notes contained evidence of review, as well as any efforts to
protect the complainant’s confidentiality during the inspection.

In addition to our statistical samples, we selected all of the hazardous condition
complaints CMS&H personnel identified as imminent danger from January 1, 2006,
through March 30, 2006, and reviewed these complaints to determine whether
immediate inspections were conducted as required under Section 103(g) of the Mine
Act and all of the allegations were addressed.

Management’s Use of Complaint Process Results

In addition to the interviews, questionnaire, and site visits discussed above, to
determine whether MSHA management effectively used complaint process results to
direct oversight and enforcement responsibilities, we obtained a walk-through of the
process for directing oversight and enforcement activities, analyzed the process, and
identified control points and deficiencies.

In addition, we reviewed CMS&H management and accountability reports and
hazardous condition complaint data available on MSHA’s website. We also tested the
hazardous condition complaint data reported on the website for CY 2004 for
completeness. CY 2004 was the most recent data reported during the period of our
review.

OIG Review of Management’s Response to the Draft Report

We made technical clarifications in the report where appropriate based on MSHA’s
response to the draft report including adding a footnote requested by MSHA to many of
the report tables.




58                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


Criteria

We used the following criteria to perform this audit:

      GAO’s Standards for Internal Control in the Federal Government, November
       1999
      Federal Mine Safety and Health Act of 1977
      MSHA Title 30, Code of Federal Regulations, Part 43
      MSHA Program Policy Manual
      MSHA Hazard Complaint Procedures Handbook
      MSHA Coal General Inspection Procedures
      MSHA Coal Mine Safety and Health Supervisor’s Handbook




U.S. Department of Labor—Office of Inspector General                                       59
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




60                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


                                                                               APPENDIX C
Acronyms and Abbreviations


AR                          Authorized Representative

ADM                         Assistant District Manager

CFR                         Code of Federal Regulations

CMS&H                       Coal Mine Safety and Health

CY                          Calendar Year

DM                          District Manager

DOL                         Department of Labor

FY                          Fiscal Year

GAO                         Government Accountability Office

Headquarters                MSHA CMS&H headquarters

Mine Act                    Federal Mine Safety and Health Act of 1977

MINER Act                   Mine Improvement and New Emergency Response
                               Act of 2006

MSHA                        Mine Safety and Health Administration

OIG                         Office of Inspector General

Section                     Section 103(g) of the Mine Act
 103(g)




U.S. Department of Labor—Office of Inspector General                                       61
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




62                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened


                                                                               APPENDIX D
Agency Response to Draft Report




U.S. Department of Labor—Office of Inspector General                                       63
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened




64                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened




U.S. Department of Labor—Office of Inspector General                                       65
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened




66                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened




U.S. Department of Labor—Office of Inspector General                                       67
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened




68                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened




U.S. Department of Labor—Office of Inspector General                                       69
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened




70                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened




U.S. Department of Labor—Office of Inspector General                                       71
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened




72                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened




U.S. Department of Labor—Office of Inspector General                                       73
Report Number: 05-06-006-06-001
Coal Mine Hazardous Condition Complaint
Process Should Be Strengthened




74                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 05-06-006-06-001
                                                       Coal Mine Hazardous Condition Complaint
                                                               Process Should Be Strengthened




U.S. Department of Labor—Office of Inspector General                                       75
Report Number: 05-06-006-06-001
